<html>
<title> - ADVANCING U.S. INTERESTS THROUGH THE OSCE</title>
<body><pre>[Joint House and Senate Hearing, 108 Congress]
[From the U.S. Government Publishing Office]




                        ADVANCING U.S. INTERESTS
                            THROUGH THE OSCE

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2004

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 108-2-9]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                   Available via http://www.csce.gov


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,    BEN NIGHTHORSE CAMPBELL, Colorado 
Chairman                             Co-Chairman
FRANK R. WOLF, Virginia              SAM BROWNBACK, Kansas
JOSEPH R. PITTS, Pennsylvania        GORDON H. SMITH, Oregon
ROBERT B. ADERHOLT, Alabama          KAY BAILEY HUTCHISON, Texas
ANNE M. NORTHUP, Kentucky            SAXBY CHAMBLISS, Georgia
BENJAMIN L. CARDIN, Maryland         CHRISTOPHER J. DODD, Connecticut 
LOUISE McINTOSH SLAUGHTER,           BOB GRAHAM, Florida 
New York                             RUSSELL D. FEINGOLD, Wisconsin
ALCEE L. HASTINGS, Florida           HILLARY RODHAM CLINTON, New York
MIKE McINTYRE, North Carolina           

                     EXECUTIVE BRANCH COMMISSIONERS

                  LORNE W. CRANER, Department of State
                     VACANT, Department of Commerce
             WILLIAM HENRY LASH III, Department of Commerce

                                  (ii)






                        ADVANCING U.S. INTERESTS

                            THROUGH THE OSCE

                              ----------                              

                           September 15, 2004
                           
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     5
Hon. Mike McIntyre, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     7
Hon. Alcee L. Hastings, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     7
Hon. Joseph R. Pitts, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    28

                               WITNESSES

Hon. Jerry Grafstein, Member, Senate of Canada, and Treasurer, 
  OSCE Parliamentary Assembly....................................     2
A. Elizabeth Jones, Assistant Secretary of State for European and 
  Eurasian Affairs...............................................     9
Stephen G. Rademaker, Assistant Secretary of State for Arms 
  Control........................................................    12
Michael G. Kozak, Acting Assistant Secretary of State for 
  Democracy, Human Rights, and Labor.............................    14

                                 (iii)
                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    42
Prepared statement of Hon. Ben Nighthorse Campbell...............    44
Prepared statement of Hon. Benjamin L. Cardin....................    46
Prepared statement of Hon. Joseph R. Pitts.......................    47
Prepared statement of A. Elizabeth Jones.........................    48
Prepared statement of Stephen G. Rademaker.......................    56
Prepared statement of Michael G. Kozak...........................    61

 
                        ADVANCING U.S. INTERESTS
                           THROUGH THE OSCE

                              ----------                              


                           September 15, 2004

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10 a.m. in room 334, Cannon House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
L. Cardin, Ranking Member, Commission on Security and 
Cooperation in Europe; Hon. Mike McIntyre, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Alcee L. 
Hastings, Commissioner, Commission on Security and Cooperation 
in Europe; and Hon. Joseph R. Pitts, Commissioner, Commission 
on Security and Cooperation in Europe.
    Witnesses present:  Hon. Jerry Grafstein, Member, Senate of 
Canada, and Treasurer, OSCE Parliamentary Assembly; A. 
Elizabeth Jones, Assistant Secretary of State for European and 
Eurasian Affairs; Stephen G. Rademaker, Assistant Secretary of 
State for Arms Control; and Michael G. Kozak, Acting Assistant 
Secretary of State for Democracy, Human Rights, and Labor.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The hearing will come to order. And before we 
begin our proceedings, I would like to extend a very warm 
welcome to Jerry Grafstein, a member of the Senate in Canada, a 
good friend. We have worked very closely together on a number 
of OSCE issues, particularly in the Parliamentary Assembly. 
He's served as our treasurer, which has kept us in the black 
for quite a long time, but has been doing a great job on a 
number of issues. We've worked very closely on issues such as 
anti-Semitism, trafficking and all of the important human 
rights issues. And I'd like to yield to Jerry just if he'd like 
to say anything.
    But you are more than welcome.
    He has been here before when we had our summit on 
trafficking. About a year ago, Jerry was a very able and very 
important participant. And he was one of the co-leaders of the 
effort to bring human trafficking--to bring anti-Semitism, I 
should say, forward in the OSCE countries and was very active 
in the Berlin conference, the Vienna conference and, of course, 
our parliamentary assemblies.
    So I yield to my good friend, Jerry Grafstein.

HON. JERRY GRAFSTEIN, MEMBER, SENATE OF CANADA, AND TREASURER, 
                  OSCE PARLIAMENTARY ASSEMBLY

    Mr. Grafstein. Thank you very much. I'm delighted to be 
here. I wasn't planning to come and attend, but I was at a 
Canada-U.S. interparliamentary meeting the last couple of days 
here in Washington. I'm Co-Chairman of the Canada-U.S. 
Interparliamentary Group, and I'm also the number two officer 
at the OSCE and have been active there for 10 years and have 
been on our parliamentary committee for that length of time.
    I discovered at the OSCE that it is the most important 
institution in the world, international institution, after the 
United Nations. And I think we do quiet and effective work. Our 
problem is that our profile and the knowledge of both our 
publics, both here in Canada and in the United States, is not 
very well known.
    And I guess that's the deficit, Chris, that you and I 
share. We haven't done as good a job of publicizing the OSCE. I 
thought maybe one of the things we could do is change the 
acronyms. We could just call it great and just leave it at 
that.
    But I want to commend the Helsinki Commission, all the 
members, Chris and others in the United States. Because over 
and over again from my observation--and it's been an important 
issue of human rights, whether it's human trafficking or anti-
Semitism or the issues that I'm interested in, which is 
economic development in the Middle East--I turn to my American 
colleagues for leadership and for comfort. And so, I just want 
to commend everybody on the Commission and particularly your 
staff who have done such a fabulous job.
    If I have some problems in terms of giving out some 
information or a factum, I just call Chris or the staff here at 
the Commission. And they've done a superb job. So I'm proud, 
really proud to be a member of the OSCE. But I'm even prouder 
of my American colleagues who time and time again have shown 
leadership where there was no leadership at the OSCE. So I want 
to commend them. And I'm here to listen with great interest to 
what your officials have to say and hopefully participate.
    Thank you.
    Mr. Smith. Thank you very much, Senator Grafstein. And 
again, thank you for joining us today
    I would like to say before I begin my opening statement 
just how grateful we are to the department for designating 
countries that absolutely ought to be on the countries of 
particular concern list, including Saudi Arabia, Vietnam and 
Eritrea. I think the additions of those countries to the list 
of egregious violators when it comes to religious freedom and 
the important determination has been made by the determination 
is to be heralded and to be commended because the facts are 
overwhelming.
    We recently had the Human Rights In Vietnam Act up on the 
floor of the House. I was a prime sponsor of it. And doing the 
research and the work on it--and it's been passed before only 
to die over on the Senate side, which may happen again this 
year--but what was very clear is that there has been a 
demonstrable decline in religious freedom in Vietnam. There has 
been a ratcheting up, particularly against the Montagnard, 
against evangelicals, against the Buddhist church and anyone 
who is not aligned with the government.
    The most recent enactment of legislation in Vietnam which 
will further tighten and circumscribe the ability of people to 
exercise their faith goes into effect in just a couple of 
months. And that will make it even worse. So I want to commend 
the department and President Bush for those designations. They 
are well received by the human rights community, I can assure 
you.
    And I thank you, Beth. And I thank all of you for that.
    I am very happy to welcome you to this Helsinki Commission 
hearing on advancing U.S. interests through the OSCE. I'm very 
pleased to have several distinguished panelists present today 
and look forward to hearing their testimonies.
    The title of this hearing is no accident. Since its 
inception nearly 30 years ago, the OSCE has been one of the 
staunchest allies of the beliefs and goals of the United States 
and our friends like Canada and the United Kingdom. It has 
multiplied the avenues through which we can promote the rule of 
law and human rights. It pioneered the broad definition of 
security that recognizes true stability does not depend on 
stockpiles of arms or standing armies, but on democratic 
principles, respect for fundamental human rights and good 
neighborly conduct.
    It legitimized the idea that a nation's domestic policies 
are the rightful concern of other OSCE states. As it reinforced 
these critical standards, the organization also evolved into a 
strong and flexible body with arguably more tools for 
addressing regional problems than any other international 
institution And I think Jerry made a very good point about this 
being such an important and yet under-heralded organization.
    The broad membership, the clearly articulated principles, 
the well-designed political structure make the OSCE an 
especially appropriate partner of the United States. Today we 
have the opportunity to hear the State Department's vision on 
how this organization can be most effectively utilized and how 
these key policy makers intend to initiate activities and 
support policies through the OSCE that will advance U.S. 
objectives.
    Let me say at the outset how appreciative I am of the 
diligence and dogged persistence of the U.S. ambassador to the 
OSCE, Ambassador Steven Minikes. He has done a tremendous job 
and deserves much credit and recognition for his leadership in 
Vienna. I note parenthetically that when we hold our 
parliamentary assemblies and our winter conferences, Steve is 
there right next to us advising, providing very useful counsel 
and insights. And we deeply appreciate that.
    This year we had an excellent example of how the initiative 
can be seized to make impressive contributions to the well-
being of the entire region while focusing on issues of 
particular concern to the U.S. The arms control bureau of the 
State Department deserves praise for seeing the opportunities 
afforded at the OSCE to contribute to hard security issues. 
They presided over a strong U.S. chairman of the Forum for 
Security Cooperation, helping to revitalize that part of the 
organization. They used it to pass agreements on management and 
destruction of excess ammunition, export controls on manned 
portable air defense systems and the transfer of light arms.
    The work of the FSC complimented that undertaking of the 
organization as a whole to conform travel documents, to address 
proliferation of weapons of mass destruction, and to discuss 
better cooperation on border security and the control of 
shipping containers.
    Every one of these key concerns to the United States and 
everyone is a transnational issue requiring that we address it 
multi-
laterally. This is the kind of robust use of the OSCE that is 
in our interest and that we would like to see supported 
throughout the U.S. Government.
    Over the past 30 years, there has also been great growth 
and development in the human dimension, an area of keen 
interest to this commission. Next month, the OSCE will hold the 
annual Human Dimension Implementation Meeting in Warsaw. This 
meeting is a regular opportunity for the participating States 
to review each other's compliance with our mutual Helsinki 
commitments, to encourage better implementation, and publicly 
question activities that are not consistent with the strong 
standards of the OSCE.
    We look forward to a strong presence and participation at 
this conference and to hearing the Department's priorities for 
that meeting. We hope that the same sense of priority and 
urgency that characterized human rights advocacy during the 
Cold War will not lag now at a time when we see examples of the 
starkest disregard of human dignity, and our nation and regions 
suffer acts so brutal that they were unthinkable only a few 
years ago.
    Understanding that upholding human rights is not only the 
policy that is ethically consistent with our ideals, but is 
fundamentally linked to our national and regional security, has 
never been more important than now. If a nation disregards 
public opinion and the oppression of its own citizens, it will 
also ignore violations to the security of its neighbors. As we 
came to see in the Balkans, we ignore the warning signs of 
abusive acts at our own peril.
    We have a great deal of work to do in this field. The lives 
of many are still on the line in the countries of Central Asia 
and periodically elsewhere in the OSCE, especially if one is a 
democratic activist, outspoken journalist or religious 
proponent. The creeping shadow of a rising anti-Semitism 
continues to threaten Europe. And the blight of trafficking in 
human beings is increasing.
    Addressing economic development and environmental 
challenges is also important. These are linked to fundamental 
matters of opportunity and trust in government and to 
stabilizing societies through the confident forum of economic 
well being.
    My good friend and colleague Ben Cardin, who has a special 
role in this area, will elaborate more on this topic. But just 
let me mention that it has never been more timely, and the less 
developed areas of the OSCE need consistent attention if we are 
not going to see political will undermined by the impatience 
that comes from economic necessity.
    We also hope to hear what the administration's focus is for 
the forthcoming Sofia Ministerial Meeting in December. The 
issue that probably will have the greatest impact on the 
evolution of the organization and on our ability to further 
U.S. interests through it is the selection of the next 
Secretary General. Members of this commission are actively 
interested in seeing a strong leader in this office.
    As you know, we have written to Secretary Powell on the 
matter and will be following up in the near future. The world 
has changed in recent years for all of us. As the OSCE takes on 
daunting challenges, it will benefit from a potent public face 
and a strong managing hand to compliment the political role of 
the rotating chairmanship.
    Other important issues that should be considered in Sofia 
include addressing expanded election commitments such as 
electronic voting and voting rights of internally displaced 
persons, enhancing the capability to fight human trafficking, 
continuing efforts on anti-Semitism, the appropriate role of 
the Mediterranean partners, and addressing the concerns in the 
statement of July 8th by the nine CIS members.
    Regarding the current discussions concerning refining and 
strengthening the OSCE, I look forward to the administration's 
views on the various comments by the Chair-in-Office, 
Bulgaria's foreign minister, Solomon Passy. He has expressed 
support for a, quote, ``better thematic as well as geographical 
balance within the OSCE,'' as also called for by nine CIS 
countries.
    Ambassador Passy has also proposed relocating meetings of 
the economic forum to Central Asia from Vienna and the HDIM to 
South Caucasus. Structurally, he has also advocated stronger 
political leadership for the Secretary General and the Chair-
in-Office and deeper inclusion of the Parliamentary Assembly of 
the OSCE.
    Again, we have a very fine set of panelists.
    And I'd like to recognize my good friend and ranking member 
of the Commission, Ben Cardin, for any opening comments he 
might have.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, thank you very much, Chairman Smith. And 
I thank you very much for convening this hearing to give us an 
opportunity to meet with our representatives to review the role 
that the United States should be playing in the OSCE and to 
look at ways that we can improve the effectiveness of the U.S. 
participation.
    And as you know, the Commission on Security and Cooperation 
in Europe is unique in that it is an independent commission. 
And we're very pleased to have representatives from the 
executive department as well as the legislative department 
serving together as commissioners to carry out the mission of 
the United States in the OSCE.
    I also want to welcome Senator Grafstein to our Commission 
here today. The United States has no greater friend in the OSCE 
than Senator Grafstein. He's been a constant supporter and 
we've worked together on strategies to set priorities within 
the OSCE Parliamentary Assembly to advance the interests of 
both of our countries. So it's a pleasure once again.
    But he's a frequent guest here, so we can't give him too 
good of an introduction every time because our hearings will 
get longer and longer. But it's a pleasure to have Senator 
Grafstein with us today.
    Mr. Chairman, let me just very briefly comment as to where 
I think we've been and where we need to review.
    The OSCE was very helpful in the Cold War, bringing an end 
to the Cold War. It's the largest regional organization. It 
gives us the ability to communicate with all of Europe and now 
Central Asia and to advance U.S. interests.
    We now need to look at what should the current role be. And 
we have seen it being very helpful to us as we've dealt with 
issues such as trafficking of human beings, anti-Semitism, in 
dealing with a whole range of issues, including building 
democratic institutions in countries that need that type of 
attention, which is certainly in the U.S. interest.
    So the OSCE is perhaps even more important today than it 
was before the fall of the Soviet Union. I'm very honored to 
chair the Committee of the Second Committee which deals with 
economics and the environment in the OSCE Parliamentary 
Assembly. And I appreciate the support I've received from 
Ambassador Minikes and Assistant Secretary Bill Lash from 
Commerce, who is a member of our Commission, as we have 
developed strategies understanding the relationship between 
economic development, human rights and security issues, that 
they're all tied together. We need to make advancements in all 
of those issues.
    The Maastricht document on economics was, of course, the 
first major document in over a decade which really spells out, 
I think, the priorities of our country and where we need to be 
in leadership, particularly in fighting corruption and 
developing strategies to fight corruption.
    In Edinburgh we reinforced that in the OSCE Parliamentary 
Assembly and reinforced the calling of a meeting of the 
Ministers of Justice and Interior to develop an anti-corruption 
strategy. And I hope that we will find the support to get that 
moving in all of the, including state, to make sure we get that 
moving. I think it's extremely important that we advance the 
anti-corruption agendas and the building of the economies, 
particularly in the emerging democracies of Europe and Central 
Asia. It's an important priority, and I hope that we can 
develop a common strategy.
    I want to mention one other point, if I might, Mr. 
Chairman. And I think there's clearly need for improvement in 
the relationship between the executive branch and the 
congressional members of the Commission as it relates to 
charges that are brought against the United States. In the last 
several years, we have received international interest in the 
way that we treat unlawful combatants, particularly in 
Guantanamo Bay and now in Iraq. And we've had a relationship 
with the executive branch in visiting Guantanamo Bay and 
getting information.
    But quite frankly, Mr. Chairman, I don't think that 
relationship has been as strong as it should be. And the trust 
has not been there so that we have the information we need in 
order to represent the interests of this country in our 
international meetings. And I would hope there would be more 
confidence expressed by the executive branch. After all, we're 
in the Commission together--and that we open up more to the 
types of charges that are brought internationally so that we 
can represent this nation as strongly as we possibly can.
    So I think there's room for improvement. I hope that this 
hearing will help us establish that close relationship that has 
existed traditionally between the executive branch, the 
legislative branch in the OSCE work. And I look forward to 
hearing from our witnesses.
    Mr. Smith. Thank you very much, Commissioner Cardin.
    Commissioner McIntyre.

 HON. MIKE McINTYRE, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. McIntyre. Thank you very much. As the newest member of 
the Commission, I particularly was proud of the work that our 
United States delegation did over in Edinburgh, Scotland and 
proud of our colleague, Alcee Hastings', election and the unity 
and bipartisan effort of our work together. And I look forward 
to today's hearing and in the interest of time will defer any 
further comments until a later statement. But thank you all for 
letting us join with you today.
    Mr. Chairman.
    Mr. Smith. I'd like to recognize the president of the OSCE 
Parliamentary Assembly, Alcee Hastings, for any comment he 
might have.

 HON. ALCEE L. HASTINGS, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Hastings. Thank you very much, Mr. Chairman. I echo 
Mike's sentiments about time and Ben's sentiment about Jerry 
Grafstein. Thank you for holding this hearing. And, Jerry, I'll 
extend to you an invitation, if we can catch up, to have an 
opportunity to talk with you personally at some point today. I 
look forward to hearing from our witnesses, particularly Ms. 
Jones, who I'm hopeful I'll be able to stay long enough to ask 
a couple of questions, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Hastings.
    Now, I'd like to introduce our very distinguished panel. 
But before doing that, just note that the new Foreign Minister 
of Montenegro is here, Vlahovic. Mr. Vlahovic, if you wouldn't 
mind just acknowledging. Thank you for being here. And we just 
wish you well, and we look forward to working with you. I would 
note parenthetically we're very pleased working with Montenegro 
and Serbia, that there has been real movement in the area of 
human trafficking. And I know that's of high interest to you.
    As you know, you used to be on that tier three, egregious 
violator, which you took some very, very profound actions to 
crack down on trafficking. And I know you're working on 
prosecution. So we deeply appreciate that. Everyone who cares 
about human rights are grateful for what you're doing.
    Let me now introduce Assistant Secretary Elizabeth Jones 
who was sworn in as Assistant Secretary for European/Eurasian 
Affairs on May 31st of 2001. She joined the foreign service in 
1970. Her overseas assignments concentrated in the Middle East, 
South Asia and Germany include Kabul, Islamabad, New Delhi, 
Baghdad, Cairo, Beirut, Tunis, West Berlin, Bonn.
    She has served as ambassador to the Republic of Kazakhstan 
in Washington. She was the Lebanon desk officer, Deputy 
Director for Lebanon, Jordan, Syria and Iraq, Principal Deputy 
Assistant Secretary in the Near East bureau. She has also 
served as Executive Assistant Secretary to Warren Christopher 
and directed the office of the Caspian base in energy 
diplomacy.
    Beth Jones was born in Germany while her parents were 
assigned there with the U.S. foreign service. She attended high 
schools in Moscow and West Berlin while her parents were on 
diplomatic assignments there. She graduated from Swarthmore 
College and earned a Masters Degree from Boston University. 
Ambassador Jones speaks Russian, German and Arabic. She is 
married and has two children. We hope she'll speak English 
today.
    Assistant Secretary Stephen Rademaker--as Jerry Grafstein 
mentioned a moment ago, how important staff is. I know because 
I serve on the International Relations Committee. Steve was the 
general counsel for the House International Relations Committee 
and wrote, literally penned much of the legislation that came 
out of that committee, particularly under Mr. Gilman who served 
as chairman, was extraordinarily gifted.
    And some of his background includes that he was the chief 
counsel as well to the House Select Committee on Homeland 
Security. He held positions, as I mentioned, on the House 
Committee of International Relations, including deputy staff 
director, chief counsel and minority chief. From 1992 to 1993, 
Mr. Rademaker served as general counsel of the Peace Corps. He 
has held a joint appointment as Associate Counsel to the 
President in the Office of Counsel to the President and as 
Deputy Legal Adviser to the National Security Council, served 
as Special Assistant to the Assistant Secretary of State for 
Inter-American Affairs, and Counsel to the Vice Chairman of the 
U.S. International Trade Commission.
    In 1986, he was a law clerk for the Honorable James L. 
Buckley of the U.S. Court of Appeals for the District of 
Columbia. From 1984 to 1986, he was associate at the 
Washington, D.C. law firm of Covington and Burling. Mr. 
Rademaker has received from the University of Virginia a B.A. 
with highest distinction, a J.D. and M.A. in foreign affairs.
    Acting Assistant Secretary Michael Kozak will be our next 
witness. He is the Principal Deputy Assistant Secretary for 
Democracy, Human Rights and Labor. He assumed his position in 
September of 2003. He has served as ambassador to Belarus, 
chief of the U.S. intersections in Cuba, Principal Deputy Legal 
Adviser of the Department of State and Principal Deputy 
Assistant Secretary of State for Inter-American affairs.
    Ambassador Kozak was assistant to U.S. negotiator for 
Panama for the canal treaties under President Nixon, Ford and 
Carter and participated in the multilateral efforts to mediate 
an end to the Nicaraguan civil war in 1978 to 1979. He was a 
member of the U.S. mediation team that implemented the Egypt/
Israel peace treaty and sought a solution to the conflict in 
Lebanon.
    Ambassador Kozak served as a special presidential envoy 
while dealing with the crisis in Panama provoked by General 
Noriega's attempt to overthrow the constitutional government. 
As a special negotiator for Haiti, Mr. Kozak helped coordinate 
the U.S. policy to restore democratically elected government. 
In 1996, he was named as Chief of the U.S. diplomatic mission 
in Cuba. In 2000, Michael Kozak was named to serve as U.S. 
Ambassador, like I said, to Belarus.
    Secretary Jones, if you could make your presentation.

 A. ELIZABETH JONES, ASSISTANT SECRETARY OF STATE FOR EUROPEAN 
                      AND EURASIAN AFFAIRS

    Sec. Jones. Mr. Chairman, thank you very much. I very much 
appreciate the opportunity as do my colleagues to appear before 
the Commission again this year. We want very much to focus on 
how we would like to work with the Commission and work in the 
OSCE to advance U.S. policy objectives. We believe that the 
OSCE has made major contributions toward democracy, peace and 
stability across Europe throughout its tenure, but especially 
through the past year.
    At the same time, I would like to say that the OSCE's 
success is really not possible without the strong congressional 
support that you represent. We want to thank especially the 
Helsinki Commission and the OSCE Parliamentary Assembly. And at 
this juncture, I'd like especially to congratulate Congressman 
Hastings for his election as the President of the Parliamentary 
Assembly. We look forward very much to working with you to 
support the assembly's meeting next year.
    We share very much the enthusiasm of the Commission for the 
OSCE. At the same time, we feel very strongly that strong U.S. 
leadership is key to the OSCE's contribution to the U.S. goal 
of a Europe whole, free and at peace. Virtually everything we 
do with the Commission and in the OSCE is focused on that goal. 
To that end, the OSCE agenda is our agenda. We believe that our 
participation advances U.S. interests in promoting democracy, 
human rights, good governance and arms control. And we believe 
the OSCE has a very important and rich role in helping to fight 
the global war on terror.
    The OSCE is unique in its capabilities in the way that they 
add value for the United States. We think that the OSCE is a 
model of effective multi-lateralism in the way that President 
Bush spoke of it last winter. Two particular examples I'd like 
to cite. One is in burden sharing.
    The OSCE allows the U.S. to share cost, to coordinate and 
avoid duplication in our policy efforts. The OSCE can bring the 
weight of 55 nations to bear on problems that no one country 
can solve alone. The other great strength of the OSCE is its 
field missions and ODIHR. There are 17 field missions from 
Albania to Uzbekistan that work every day for democracy and the 
other baskets in which the OSCE focuses. The ODIHR is the most 
respected election observer organization in Europe and Eurasia.
    We also believe the OSCE is a relative bargain for the 
United States. We pay about 10 percent, just over 10 percent of 
the costs. And we reap tremendous benefits, possibly up to 100 
percent.
    I'd like to highlight two big successes of the OSCE to 
demonstrate what it can do. These have occurred in the past 12 
months. And it demonstrates the force multiplier that the OSCE 
provides. In Georgia, the OSCE election monitoring was a voice 
of the international community on the flawed elections that 
took place there last November. It was the OSCE that helped 
leverage over $7 million in European aid for new elections that 
took place earlier this year in Georgia. OSCE monitoring was 
key to establishing the new government's legitimacy.
    Another big success was the Berlin anti-Semitism 
conference. It was a landmark event in raising European 
awareness of the problem. It set the stage for follow-up on law 
enforcement, on legislation and education in this important 
area.
    I would like especially to applaud you, Mr. Chairman, 
Congressmen Cardin and Hastings for joining the Secretary in 
making the conference a success. There are many other unsung 
OSCE successes from Kosovo police training to progress toward 
all 55 OSCE members acceding to the U.N. terrorism related 
conventions.
    At the same time, OSCE is adapting a new agenda. U.S. 
leadership has helped form that agenda and is focusing on 
practical outcomes for these particular goals. On trafficking 
in persons, which you have each mentioned, we should take 
credit for creation of a special representative on trafficking. 
This was a U.S. initiative. The U.S. is now helping to shape 
the OSCE work plan on trafficking. The OSCE's new code of 
conduct for its missions is really a model for other 
international organizations.
    Tolerance is also an area in which we should take 
considerable credit. The high profile racism, anti-Semitism 
conferences were U.S. initiatives. We're now pushing for more 
expert level followup from trafficking and hate crimes to 
increasing training for police.
    Counterterrorism is another area where we've taken a 
leadership role, particularly in the adoption of tougher travel 
document security measures and stricter controls on MANPADS. At 
the same time, the OSCE is working hard on the traditional core 
mission of democracy and human rights with election observation 
where ODIHR provides impartial monitoring of elections in 
Macedonia, Serbia and Russia and is again setting the 
international standard for those elections.
    I already mentioned the field missions. The largest OSCE 
field mission is in Kosovo to help and implement the U.N. 
Security Council enforce standards. Smaller missions are in 
Minsk and Ashkabad that are reaching out to the next generation 
of civil society. And I can't applaud those initiatives enough.
    Looking ahead, the OSCE has an ambitious agenda which is at 
the same time key to U.S. policy objectives in election 
monitoring. We're sending our first election assistance team 
outside of Europe and Eurasia to Afghanistan to provide support 
for the historic presidential elections there next month. The 
OSCE will monitor important contests this fall in Ukraine and 
many other places.
    On our tolerance agenda, the OSCE is pioneering in its work 
on fighting intolerance, which continues with the racism 
conference that took place in Brussels yesterday and the day 
before. The U.S. leadership is very evident in the fact that 
HUD Secretary Jackson led the delegation.
    Sofia is our next ministerial of the OSCE. We are very much 
working with the Chairman-in-Office, Solomon Passy, to assure 
practical outcomes for that ministerial in December. We hope to 
reach agreement on establishing a Special Representative for 
anti-Semitism at this ministerial to further combat and to take 
further steps to combat racism.
    We will also push again for Russia to fulfill its Istanbul 
commitment. And we expect the ministerial to endorse OSCE work 
on shipping container security and destruction of excess 
stockpiles of ammunition and weapons. There are three 
challenges that we need to resolve this fall to keep the OSCE 
healthy and productive. You've mentioned each of these, and we 
look forward to having a discussion on how best to move forward 
on each of them. The budget is a particular concern of ours. We 
need responsible approaches to resolve differences before the 
Sofia revision of the OSCE's two scales of assessment.
    Russia and others seek radical reduction in contributions. 
We back adjustments based on previously agreed upon parameters, 
which include ceilings and floors based on capacity to pay.
    You mentioned the importance of selecting the next 
secretary general. We completely agree that this is important. 
Chairman in office Passy has made some suggestions, and others 
have made suggestions to change the way the secretary general 
is--the secretary general's role, change the level of the 
secretary general, which we believe needs careful consideration 
because it has very important implications.
    Changing the balance between the Secretary General and the 
Chairman-in-Office could change the OSCE. That needs careful 
thought. At the same time, we believe it's essential to keep 
the OSCE's flexibility by minimized and central control within 
the organization.
    The C.S. has called for change in the OSCE. Russia and 
others have been critical of some of the field operations and 
of ODHIR. We believe that the OSCE core mission remains 
fostering democratic change as the only way to defeat 
underlying causes of instability. The U.S. has been flexible. 
We've supported Russia's effort to strengthen the OSCE's 
economic and security work. But we will not agree to reforms 
that weaken the OSCE's human dimension work.
    The bottom line for us, Mr. Chairman, is that we believe 
the OSCE's record of achievement over the past year is very 
impressive. Thank you very much for your mentioning of 
Ambassador Minikes and the very strong leadership role he has 
played in ensuring this. We certainly agree with that. And we 
work with him on a daily basis. I, in fact, was on the phone 
with him this morning to be sure we were in concert on the 
kinds of things that we would be discussing today.
    We think that the OSCE's agenda for this year is ambitious. 
We are leading that agenda. The OSCE deserves continued U.S. 
support because of its contributions to U.S. objectives. Those 
contributions are substantial. The OSCE does face challenges 
ahead. We want to make sure that the OSCE remains a creative, 
flexible organization able to advance U.S. interests and the 
interests of all members of the organization.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Ambassador Jones. And 
appreciate your testimony. Secretary Rademaker.

  STEPHEN G. RADEMAKER, ASSISTANT SECRETARY OF STATE FOR ARMS 
                            CONTROL

    Sec. Rademaker. Thank you, Mr. Chairman. It's a pleasure to 
be back here with the commission. It's my first appearance 
before the Commission, but I'm certainly no stranger to the 
Commission and its work having worked with you and your former 
ranking member, Mr. Hoyer, for many years as well as some of 
the outstanding members of your staff. So it is a great 
pleasure for me to be back here in a slightly different 
capacity today.
    As you know, Mr. Chairman, the regional structure--well, 
first of all, let me say I do have a prepared statement, which 
I'm submitting for the record. But I will not sit here and read 
it to you. I'll touch on some of the key points in my oral 
presentation.
    As you know, Mr. Chairman, there is a regional structure of 
conventional arms control and CSBMs in place in Europe that 
goes far beyond what we see in any other part of the world. And 
in large measure, this is a legacy of the Helsinki Final Act, 
which in its basket three provided a starting point for the 
evolution that's occurred over the last 30 years. And from 
basket three, we moved on to things like the conventional armed 
forces in Europe agreement, the open skies agreement and most 
recently, the Vienna document of 1999, all of which have 
enhanced and broadened the range of arms control and CSBMs in 
place in Europe.
    The OSCE is deeply involved in all of these matters. And on 
a day-to-day basis, the OSCE manages the arms control and CSBM 
issues through what is known as the Forum for Security 
Cooperation, which within the State Department is managed by 
the Bureau of Arms Control.
    The FSC has weekly meetings in Vienna. And the second item 
on the agenda of every meeting is something called security 
dialogue, which is an opportunity for any member of the OSCE to 
raise any security issue of concern to them. And many countries 
take advantage of this, and it's a very useful opportunity to 
draw attention to emerging problems and to get countries 
thinking about possible solutions to such problems.
    Another very important thing that the FSC does is that 
every year in March it has an implementation assessment meeting 
which systematically reviews the implementation of and 
compliance with all of the various commitments that countries 
within the OSCE have made to each other with respect to arms 
control and transparency. The principle focus is on the 
implementation of the Vienna doctrine of 1999, which is, as you 
know, a transparency document providing for information 
exchanges and a system of inspection and evaluation visits of 
respected militaries within Europe.
    The annual assessment meeting also looks at implementation 
of the various documents that have been adopted through the 
Forum for Security Cooperation: the 1994 code of conduct on the 
political and military aspects of security, which is about the 
relationship of a military to the rest of society in a 
democracy; the 2000 document on small arms and light weapons; 
the 2003 document on stockpiles of conventional arms. Under 
these last two, there's a prospect of assistance to countries 
that need assistance in getting rid of small arms and dealing 
with excess stocks of ammunition. And the OSCE has received a 
number of requests for assistance in this area, which it's 
currently working on.
    As you noted, Mr. Chairman, the United States chaired the 
FSC in the fall of 2003. And the philosophy of our chairmanship 
was exactly what you suggested. I like the term you used: 
robust use of the OSCE. That is the way we approached our 
chairmanship. And we believe we were very successful.
    During our chairmanship, we were able to bring about the 
adoption of the document on stockpiles, which I referred to a 
moment ago. We also had a three-part agenda that we promoted 
during our chairmanship: first, non-proliferation; second, 
addressing the problem of MANPADS; and third, dealing with 
civil military emergency preparedness.
    The way we addressed these three things was by taking 
advantage of the security dialogue portion of the FSC agenda in 
a systematic way during our chairmanship provide presentations 
on these various issues and get the other countries thinking 
about each of these three areas.
    We were especially successful when it came to MANPADS 
because what we did was lay the groundwork for adoption by the 
OSCE of the Wassenaar Arrangement Export Control regime with 
regard to MANPADS. This was something that had the effect of 
doubling the number of countries around the world that adhere 
to the Wassenaar Arrangement Export Control standards for 
MANPADS. And so, we do believe that made a material 
contribution to controlling this threat, which, of course, is 
one of our great concerns when it comes to potential terrorist 
attacks on civilians.
    I did want to mention the adapted CFE treaty, that is, the 
revised Treaty on Conventional Armed Forces in Europe. As you 
probably know, this is one of our biggest frustrations when it 
comes to arms control in Europe. The adapted CFE treaty was 
signed in November of 1999. And almost five years have gone by. 
We have not yet ratified the adapted CFE treaty and it has not 
come into effect because all of us within NATO agreed that we 
did not want to proceed to ratification until Russia had 
implemented its Istanbul commitments with respect to 
withdrawing its forces from Moldova and setting a deadline for 
closing bases in Georgia.
    Five years have gone by and Russia still has not 
implemented these commitments. And, as I said, it is a source 
of great frustration. The OSCE is working very hard on this 
problem. This is a priority for Ambassador Minikes. He devotes 
a lot of effort to this.
    The OSCE has established a voluntary fund to try and deal 
with the financial aspect of bringing about implementation of 
the Istanbul commitments. But notwithstanding these efforts, we 
haven't seen much progress. And this is of concern to us.
    You may have noticed the defense minister of Russia gave a 
speech last February in which he hinted that if the adapted 
treaty was not soon brought into effect, Russia might 
reconsider its adherence to the existing CFE treaty, which, of 
course, would be of great concern to us. But this should not be 
misunderstood as a lack of Russian interest in the adapted CFE 
treaty because just this year, the Russian Government 
proceeding in the direction of ratification of the adapted 
treaty.
    The state duma, the federation council approved a law which 
was signed by President Putin in July to provide for 
ratification of the adapted CFE treaty. So Russia remains 
interested in this, they just haven't taken the steps that need 
to be taken to make it possible for the rest of us to ratify 
the adapted treaty. And we will continue to send the message to 
Russia that there is no shortcut to entry into force of this 
very important treaty that does not involve full implementation 
by them of the Istanbul commitments.
    One final point that I wanted to make that I know is of 
interest to some members of the Commission is the degree to 
which the OSCE and this web of arms control and CSBMs that is 
in place in Europe can serve as a model for other regions in 
the world. And we believe that it can serve as a model. 
Interestingly, the region of the world that has gone furthest 
in trying to adopt some of the measures that are currently in 
place in Europe is the Western Hemisphere. Through the OAS in 
2003, there was a declaration of security in the Americas which 
drew heavily from the Vienna document of 1999. There is not an 
institutionalized relationship between the OSCE and the OAS. 
And I think the explanation for that is that we don't really 
need one. Two of the most important OSCE members, the United 
States and Canada, are also members of the OAS. There are 
nearly a dozen other OSCE members who are observers at the OAS. 
And so, there is a lot of day-to-day interaction between the 
two organizations. And I think that's been very helpful in 
enabling the OAS to adopt some of the measures that the OSCE 
pioneered.
    Asia also has a strong interest in some of the 
accomplishments that have been realized within Europe. There is 
a more formalized dialogue between the OSCE and some of its 
Asian partners. There have been two workshops held in South 
Korea in 2000 and 2001 to look at possible application of 
Vienna document concepts in Asia. And then in Tokyo in March of 
this year, the Japanese Government hosted a conference with the 
OSCE to look at the same question.
    In the Middle East, there is an annual meeting between the 
OSCE and the Mediterranean partners. But I guess I would say 
candidly that we're not as far advanced in working with Middle 
Eastern countries as we are in the Western Hemisphere and in 
Asia in exploring the applicability of OSCE models to other 
regions. But we do have an office within the arms control 
bureau that is in the business of promoting CSBMs all over the 
world. And I can assure you that they work closely with our 
experts on the OSCE to continue pursuing this question of what 
we can learn from the European experience.
    Thank you, Mr. Chairman
    Mr. Smith. Secretary Rademaker, thank you very much for 
your testimony and your leadership. Ambassador Kozak.

   MICHAEL G. KOZAK, ACTING ASSISTANT SECRETARY OF STATE FOR 
               DEMOCRACY, HUMAN RIGHTS, AND LABOR

    Sec. Kozak. Thank you, Mr. Chairman. And I particularly 
wanted to thank you and your colleagues for your long-standing 
commitment to the hard work of human rights and democracy. I'm 
also pleased to be joining some old compatriots in that same 
struggle, Beth Jones and Steve Rademaker at this important 
hearing.
    As with Secretary Rademaker, this is my first appearance as 
a witness before this Commission. But it's not the first time 
I've had the pleasure of working with you and with your 
excellent staff. I see Dorothy and Ron and Orest, too. We spent 
many long times together when I was working on Belarus.
    And I think for me that was one of the greatest 
demonstrations of the value of the OSCE. That tiny OSCE mission 
in Belarus and Minsk was really the beacon of hope for human 
rights activists and democracy activists in that country. And 
it really shows what a small commitment of OSCE resources can 
do.
    Next year will mark the 30th anniversary of the Helsinki 
Final Act. And I remember former Secretary Schultz saying that 
at the time it was signed, no one really realized the potential 
impact of the human rights provisions of that document. In 
fact, he said that in his opinion, it was one of the crucial 
turning points of the Cold War when at Helsinki we made it OK 
to talk to the Soviets about human rights. Before that, they 
would brush aside references to human rights and democracy as 
an intervention in internal affairs.
    The fact that the democratically elected Government of 
Bulgaria is now serving as the OSCE Chair-in-Office, something 
unimaginable in 1975, shows just how far we have come. If other 
countries have mature democratic processes, life becomes 
relatively easy for the United States because the people in 
those countries will use those processes for correcting any 
errors of policy or management before they become big problems 
for the international community. So I think there's a very good 
practical side to why we want to be promoting democracy through 
organizations such as the OSCE.
    Unfortunately, despite the huge advances in Eastern Europe, 
democracy--and until recently in Russia itself--a democracy 
deficit continues to plague many countries of the OSCE. Since 
the Commission's last hearing, we've seen seriously flawed 
elections or worse in a number of countries. But we have seen 
progress, too.
    The reaction of the Georgian people to the blatant fraud 
committed in Georgia's parliamentary elections shows the 
governments that engage in efforts to manipulate electoral 
process do so at their own peril. ODHIR involvement in 
assisting Kazakhstan, Kyrgyzstan and Tajikistan to revise their 
electoral laws in the past year have been remarkably 
successful. While none of their respective laws are fully 
compliant with OSCE commitments, they have all been brought far 
closer to meeting international standards. Rule of law based on 
democratic principles and commitments is another lynch pin of 
democratic society. Here the OSCE is helping by analyzing 
participating states' legislation and recommending amendments 
to meet OSCE standards.
    The OSCE can also bolster participating states' capacity to 
enforce the law consistently and impartially. ODHIR has had 
several notable success stories in Central Asia, especially in 
Kazakhstan and Kyrgyzstan, where governments have transferred 
authority for prison administration to the Ministries of 
Justice. There can be no democracy without media freedom. And 
unfortunately the situation for journalists and some OSCE 
participating States has worsened since the last hearing. 
Ukraine and Belarus have intensified their assault on the 
independent media in the runup to the October elections in 
those countries by harassing, intimidating, fighting, and at 
times imprisoning independent journalists, and by closing down 
independent media outlets.
    Turkmenistan recently took steps to clamp down further, if 
that's possible, creating a national press service to supervise 
print media. Actions in Russia over the past few years also 
raise serious questions about its commitment to media freedom.
    Miklos Haraszti, the new representative for media freedom 
of OSCE, has made it one of his first major initiatives to urge 
governments to decriminalize the libel laws. Having watched the 
Belarusian Government use such laws to criminalize policy 
differences, I can only wish Mr. Haraszti the greatest success 
in this endeavor. The U.S. has made an extra budgetary 
contribution to this project.
    Active civil society is one of the most important 
components in a thriving democracy. NGOs continue their 
courageous work despite harassment in several countries. In 
fiscal year 2004, the U.S. provided over $400 million to 
support democratic development in the OSCE region. Our 
assistance is described in some length in the book, 
``Supporting Human Rights and Democracy,'' a report that we do 
annually to the Congress. I think there are copies available 
here at the hearing room.
    Religious freedom is fundamental to democratic development. 
As we speak, Secretary Powell and Ambassador Hanford are 
presenting the CPC designations, announcing them publicly that 
you mentioned earlier, Mr. Chairman. And I think those speak 
for themselves. That countries like Saudi Arabia are on that 
list shows that the President's statement that the Middle East 
was no longer immune to discussion of human rights is proving 
out in practice.
    They also are presenting as we speak the International 
Religious Freedom Report, which is, again, another report 
required by law and which we all worked very hard on. So I 
think that will be the news on the religious freedom front 
today rather than anything I say, is what they have to say and 
what we have had to do on religious freedom. And I think as you 
look at that report, you can see quite a bit of detail on the 
state of religious freedom within the OSCE region as well as 
the rest of the world.
    All OSCE States must continue to root out extremism and 
terrorism. We all have a responsibility to assure that human 
rights are protected even as we combat terrorism. And in this 
respect, the deplorable treatment of Iraqi detainees at the 
hands of U.S. military personnel in Iraq was a stain on the 
honor of our Nation. When President Bush expressed his deep 
disgust and regret about the events at Abu Ghraib, it wasn't 
just his personal reaction as a matter of principle. It was 
also his reaction as the head of state of a country that holds 
itself to the same high standard to which we hold others.
    As President Bush said, one of the key differences between 
democracies and dictatorships is that free countries confront 
such abuses openly and directly. We expose the truth, hold all 
who bear responsibility fully accountable, and bring them to 
justice and then take action to be sure that abuses don't 
recur. We take our OSCE commitment seriously, and we will keep 
the OSCE appraised as investigations proceed. We're also 
organizing a site event at the upcoming human dimension 
conference in Warsaw where we will address the issue of 
prisoner abuse and U.S. measures to bring about accountability.
    U.S. supports OSCE's effort to eliminate all forms of 
torture. As that word is defined in the convention against 
torture, in President Bush's statement on torture victims' day 
and by common sense. We will continue to press individual OSCE 
participating States to end torture as a matter of policy and 
to hold human rights abusers accountable.
    A crucial component in the fight against terrorism is 
promotion of tolerance. As Secretary Jones just elaborated in 
her testimony, we applaud the OSCE's efforts to fight racism, 
anti-Semitism, religious intolerance and other forms of 
xenophobia and discrimination. Much remains to be done, 
however, and we look forward to the naming of special 
representatives to further our collective efforts in this 
regard.
    One lesson I learned during my time in Belarus is that the 
OSCE is only as strong as its participating States. When the 
Chair-in-Office and members give field missions their full 
backing, they are able effectively to challenge repressive 
regimes and to bring about hope and progress. When the Chair-
in-Office and other member states try to appease a repressive 
regime, more repression and more illegitimate demands are the 
inevitable result
    This means that member States must use the full range of 
incentives, both positive and negative, available to them to 
encourage democratic progress and to deter abuses of OSCE 
personnel as the responsibility of all of us. In this regard, 
some seem to have accepted the charge of double standards that 
have been made against ODHIR. This is a red herring. There's 
only one standard for democratic elections based on the 
criteria set out in the OSCE commitments stipulated in the 1990 
Copenhagen document and the 1991 Moscow document and reaffirmed 
in the charter for European security adopted at the Istanbul 
summit. The fact that one member can always claim that someone 
else is worse than they are, if accepted, would be a race for 
the anti-democratic bottom.
    To me, one of perhaps the most disturbing developments in 
the past year was the July declaration signed by nine members 
of the Commonwealth of Independent States. It seems to call 
into question the right of OSCE to raise human rights issues. 
And in rhetoric reminiscent of not only the Soviet Union, but 
other dictatorships such as Pinochet's Chile and the generals 
in Argentina, deems discussion of human rights to be a breach 
of principles of non-
interference in the internal affairs and respect for 
sovereignty of states.
    This reversion to pre-Helsinki Final Act paths cannot be 
allowed to stand. In 1991, OSCE participating States agreed in 
the document on Moscow meeting that the participating States 
emphasized that issues relating to human rights, fundamental 
freedoms, democracy and the rule of law are of international 
concern as respect for these rights and freedom constitutes one 
and the same foundations of the international order.
    We had it right then. We must not allow a return to a pre-
Helsinki version of the world now in which self-determination 
and non-
intervention were perverted into a shield behind which 
dictators at the right and the left had the freedom to deprive 
their own peoples of freedom without fear of criticism from the 
rest of the world. In his memoirs, former Secretary of State 
Schultz said, ``We had insisted that we would not settle simply 
for words on human rights. We insisted on deeds.'' On its 30th 
anniversary, we must insist that the promises of human rights 
for all citizens embodied in the Helsinki Final Act and 
subsequent commitments of the OSCE are echoed in deed 
throughout the OSCE region.
    Thank you, Mr. Chairman.
    Mr. Smith. Mr. Ambassador, thank you very much for your 
testimony.
    And just to lead with your last point, one of your last 
points, first, I'm very grateful for your strong statement on 
the statement made by the nine presidents. And I would just 
point out that we did a response to that as well.
    I mean, we've heard that of not being criticized for human 
rights abuses. That's the same old, tired out, worn out line 
that we've heard from PRC, Vietnam, North Korea, South Africa 
during apartheid years and, of course, the Soviet Union. So 
we've made a very strong, and use the word again, robust 
response to the nine presidents. It does raise some very 
serious problems.
    Armenia, Belarus, Kazakhstan, Kyrgyzstan, Moldova, the 
Russian Federation, Tajikistan, Ukraine and Uzbekistan all 
signed it. And we know that the Kazakhstan wants to be the 
Chair-in-Office for the year 2009.
    And perhaps Ambassador Jones or you might want to respond. 
Because I thought that was where would they take the OSCE. And 
that decision, as you know, needs to be made in the year 2006. 
So if that's the direction, we need to put a tourniquet on that 
kind of thinking because I think it's very, very injurious to 
any human rights discussion.
    I would also want to raise the issue of trafficking. And I 
want to publicly and very strongly commend the President for 
his leadership on human trafficking. As you know, I was the 
prime sponsor of the Trafficking Victims Protection Act of 2000 
and the reauthorization of 2003 signed by President Bush, the 
other signed by President Clinton. And Steve Rademaker will 
remember that we had unbelievable pushback on the naming of 
names, the non-
humanitarian aid sanctions.
    Humanitarian aid obviously should flow in an unfettered way 
to any country because we care about those who are distressed 
and disenfranchised and hurting. But certainly military aid and 
other kinds of aids ought to be used as sticks for countries 
that refuse to respect their own people, especially the women 
who are being trafficked.
    And I would point out that the naming of names has worked, 
I think, has proven that smart sanctions work. When you get 
good friends like Turkey, Greece, Russia, Israel, South Korea, 
all being designated as tier three countries and then getting 
off the list because of their actions to crack down. Serbia and 
Montenegro are on that as well, and raided brothels, closed 
them, began prosecuting the traffickers and protecting the 
victims. It proves that when we put our money where our mouth 
is, we can get real results.
    I would point out that Bangladesh even now is doing--has 
avoided sanctions, unlike Venezuela and Cuba and others who are 
on tier three, because they stepped up to the plate and began a 
very serious and hopefully sustained effort to stop trafficking 
within their environs. So I want to thank the President for 
doing so.
    I raise this especially because, as Steve Rademaker 
mentioned a moment ago, we used our chairmanship very 
effectively when it came to arms control and security issues. 
We will be chairing the Security Council at the U.N.--and 
Secretary Jones, you might want to speak to this--in just a 
couple of months. My hope is, especially given the President's 
very strong statements last year at the U.N. on trafficking, 
that we will use that chairmanship to really take the human 
trafficking issue and put that center stage again as we chair 
that to show that we mean business.
    We're doing it, you're doing it. I would also point out and 
I would hope that all the countries of the world would take 
note, we're attacking it within our own country as well. The 
rescue and restore efforts being rolled out by the Justice 
Department, Health and Human Services, the State Department, 
everyone working with the local government, state and local law 
enforcement is working very well.
    The Tampa speech as well as that meeting--I was at the 
Newark, New Jersey rollout, and I just have nothing but 
accolades and praise for the very serious and often under-
heralded efforts by the president with regards to trafficking. 
Please use that security council chairmanship to take that 
issue and just get it right smack dab in front of everybody 
again and say, ``We mean business.''
    On anti-Semitism, if I could, the thoughts about Cordoba, 
whether or not we are pushing for a followup there to the 
Berlin conference. And also, if you would, the idea that has 
been pushed, that I think is a good idea, of having a more 
regularized mechanism for the Chair-in-Office, a special envoy 
or some other office to monitor anti-
Semitism.
    And then finally--and then I will go to my colleagues, but 
I have a number of questions. The 9/11 Commission and the some 
30-odd hearings that were held--I chaired two of them myself 
for the International Relations Committee and for the Veterans 
Affairs--it became very clear. One issue that you might want to 
speak to.
    The 9/11 Commission said that travel documents are like 
weapons for the terrorists. A very good and I think profound 
statement made by that commission. In looking over the 
conventions of the U.N., it's very clear that there are some 12 
conventions that deal with terrorism, the money laundering and 
then the financing one of 1999, I think, being the most recent. 
None of them speak to travel documents.
    And I know that the department is working on biometrics and 
a lot of other very important initiatives. But it seems to me 
U.N. Security Council resolutions don't have the weight that a 
convention might have. And it's something we might think about. 
You might want to touch on it.
    And again, one thing that all of us are concerned about, 
and that is the whole issue of--and the commission, the 9/11 
Commission, spoke to this--a more robust work within the Middle 
East in terms of public diplomacy. The OSCE might offer the 
model. We have Mediterranean partners. Six members of the 
Middle East are a part of that, including Israel, Jordan, 
Egypt. What could be done, in your view, to expand OSCE 
principles? Don't rewrite them. Take those and say, ``Here's 
something we need to invite you to become more of a part of.''
    All of us, Alcee, all of us that are on the Commission 
care--and Ben Cardin--deeply about this. We even had a hearing 
with Sharansky and many others, as you know, on June 15th to 
explore this as a way of trying to get them to be--you know, 
get the good infection [ph] about democracy and human rights 
observance.
    Sec. Jones. Thank you, Mr. Chairman. Let me go first to 
your first question about Kazakhstan and its desire to--its 
proposal that it be accepted as the Chair-in-Office and what 
that means in terms of their having signed this CIS statement. 
As Secretary Mike Kozak said, we have serious problems with the 
CIS statement. There is no double standard in the OSCE. There 
is no double standard in ODHIR.
    Each of the countries who signed this document signed up to 
adhere to the principles of the OSCE when they first joined the 
organization. And Mike read out what that means. We have since 
then, not least because of the very strong statements and 
communications from the commission itself to each of these 
governments, but we have separately on a bilateral basis had 
conversations with each of these governments about what does 
this mean.
    I look forward to pursuing these questions with colleagues 
of those countries when I meet with them, several of us, meet 
with them next week in New York where we'll have a lot of 
meetings on the margins of the General Assembly during leaders 
week.
    In terms of Kazakhstan's desire to be selected for Chair-
in-Office in 2009, we've been very forthright in telling 
President Nazarbayev and his colleagues that one of the 
principle criteria is adhering to all of the OSCE principles. 
As Mike said, Kazakhstan has done a very good job of getting 
back on track in assuring that it does adhere to these 
principles in some of the actions that it's taken over the past 
year, getting very close to OSCE principles and OSCE 
requirements.
    There's still a bit to go. And, as I say, we look forward 
to those kinds of conversations next week to push forward on 
exactly the kinds of things that we think are necessary. We 
have a very, very robust conversation with the Kazakhstanis, 
both bilaterally in terms of Washington, but also our embassy 
in Almaty is very active on the subject, as is Ambassador 
Minikes.
    On trafficking in persons, the OSCE itself, thanks to the 
leadership of the Dutch Chairmanship-in-Office last year, put 
forward a proposal that the OSCE itself have a trafficking in 
persons mandate. They have done that. There is a person now 
assigned, appointed to lead this effort within the OSCE. It's 
an extremely good way to press and encourage OSCE member States 
to assure that they have the right kind of legislation, that 
they have their programs, that we share best practices and how 
to address each of the areas that are so important to us in 
pursuing trafficking in persons.
    In terms of your recommendation of using our security 
council chairmanship to pursue trafficking, I will certainly 
discuss this with my colleagues in the international 
organizations bureau and with, of course, Ambassador Danforth 
as well as Secretary Powell to see how that might best be done.
    I addressed in my statement, as you will see in my formal 
written statement, the issue of U.S. support for the Cordoba 
conference that Spain has proposed. We look forward to using 
that as an expert level discussion to assure followup to the 
extremely good recommendations that have been made and 
proposals that have been put forward by the anti-Semitism 
conference.
    We do support naming a special representative, provided 
this is resources neutral. We think a special representative 
can be very aggressive without a lot of administrative 
underpinning, shall we say, in making sure that governments 
understand what it is that they've agreed to, understand what's 
been put forward and to provide the kind of support that's 
necessary to make sure that legislation, training, education on 
these issues is pursued in the way that it should.
    On travel documents and the security of travel documents, 
this is a very strong element in the OSCE's efforts in the FSC. 
It's also an issue that's under very detailed, very detailed 
conversation between the United States and the European Union, 
for example, through home and justice affairs. There are 
conversations underway right now between us and Russia on a 
bilateral basis on how to assure greater security of travel 
documents, airline security, those kinds of issues.
    The biometrics issue was one that is of significant 
importance to Secretary Ridge, that he is pursuing personally 
in a very aggressive way. And I'm very grateful for your 
mentioning of it in this context. It gives us a greater oomph 
to push this forward because it is something that we would like 
to make sure that all member states of the OSCE take as 
seriously as the rest of us do.
    On the OSCE and how it can be used in the Middle East, you 
mentioned very rightly that there are conversations with the 
Mediterranean dialogue [ph] their way to expand these 
principles. That's actually exactly the theory, the principles 
behind the President's recommendation to his G-8 colleagues, 
the kinds of proposals that we've made in the U.S./E.U. 
context, the kinds of proposals we've made to NATO. That's why 
in the three summits that we had this year in June the G-8 
adopted the broader Middle East and North Africa initiative. 
Those are the principles that we have borrowed or used from the 
OSCE to put forward as suggestions to the broader Middle East 
and North Africa countries as ideas that they can use to 
develop a stronger civil society, they can use to work with in 
democratic reforms and human rights reforms. That's exactly the 
idea without expanding the organization itself.
    There is a considerable discussion underway now as to how 
to operationalize it, if I can put it that way, the kinds of--
these principles. There will be a planning meeting of the forum 
for the future at the general assembly that Secretary Powell 
will participate in with his colleagues. There's a lot of work 
underway to try to use these kinds of principles to pursue 
democracy, human rights, civil society in the broader Middle 
East and North Africa.
    So I thank you for your appreciation of the importance of 
this issue. Thank you.
    Mr. Cardin. Let me yield first to Mr. Hastings. I think he 
has a time problem.
    Mr. Hastings. Thank you. I have a meeting with the vice 
president of the foreign affairs committee of Austria and need 
to rush away. I'm sorry I'm not going to get to get with you, 
Jerry. Thanks so much.
    Mr. Chairman, I'm appreciative of all of the testimony that 
the witnesses have presented to us here this morning in very 
concise fashion. And I'll try to be likewise. And I appreciate 
you holding this meeting.
    I also just will take a personal liberty in a friend of 
mine and a friend of this organization who used to be a high 
staffer in the Parliamentary Assembly's staff in Copenhagen, 
has now moved to America. And I see his interest continues. But 
Eric Rudenshiold, who is a resource for us, has an extensive 
amount of understanding of the OSCE process. And I just take 
note of the fact that he's in the audience.
    Ms. Secretary, thank you so very much for all of your 
assertions. I agree with the chairman in all of his assessments 
and your responses to them. I'm deeply appreciative. I 
certainly am very, very mindful of the need for transformation 
of the OSCE. Last Wednesday, I had a very good meeting with 
Secretary Powell in discussing a lot of the issues. And please 
convey to him my strong appreciation for the statement 
regarding the Gulf War. We talked about that briefly unrelated 
to OSCE activities.
    Also, the shaping up of the election observer mission of 
OSCE--we had very brief discussions regarding that. And I 
explained to the secretary my view as the President of the 
Parliamentary Assembly. First, I wanted to make him fully aware 
of the fact that as the president and as a political 
functionary in my other responsibility that I have requested 
Chairman Passy to designate another person whom he has 
designated to lead the Parliamentary Assembly's observer 
mission. And that's Barbara Haering from Switzerland.
    And at my request, Chairman Passy did make that 
appointment. I say all of that because we come to today and 
appreciating very much our state having fulfilled the U.S. 
obligation to invite election observers from the OSCE. I do 
need to have some assurances that the State Department is going 
to follow its practices regarding visa fees and visas and grant 
them in an expeditious manner for OSCE parliamentarians and 
their staffs. I think in all other election observations by the 
OSCE, that has been the case. And I don't need a response from 
you, but I do need to put it on your radar screen because it's 
something that's critical.
    Right now, I need, for example, for Ms. Haering to be 
expedited to get here to do the assessment for the 
Parliamentary Assembly. Which brings me to my next observation. 
With my colleagues, the chairman of this Commission and my 
colleagues, the treasurer of the Parliamentary Assembly from 
Canada here and chairman of the important committee of the OSCE 
which I now am privileged to be president of, Mr. Cardin, I'm 
sure they all will take note of my parochial interest, not me 
as a congressperson, but as a Parliamentary Assembly member, in 
asserting very strongly the role that the Parliamentary 
Assembly plays in election observation.
    When I read your printed remarks, I note the absence and 
the highlighting of ODHIR's responsibility, which I do not 
minimize by any stretch of the imagination. I consider it 
extremely important. But as one, along with Jerry, for example, 
we were in Russia and we observed the Russian election. ODHIR 
was there. But the Parliamentary Assembly was there in a rather 
substantial kind and led by then-President Bruce George. We, 
too, had exacting responsibilities.
    Well, when it comes to America and the shaping of the kind 
of observer mission, if you take the political tensions off the 
table, it seems to me only fairness or fairness dictates to us 
that this is an opportunity--and this is what I said to 
Secretary Powell--take Hastings out of the picture.
    This is an opportunity, number one, for an extraordinary 
bipartisan effort to assure and ensure that those observers see 
the full panoply, not one person's side or the other person's 
side or ideologically, but that they do what they can do best. 
That's important, in my judgment. And I will be speaking with 
Speaker Hastert specifically to make sure that we do everything 
for any briefers, either by ODHIR or the P.A. or combined that 
they are totally bipartisan without any hesitancy whatsoever.
    Now, I'm just back from Belgium yesterday where I attended 
the racism and xenophobia conference, which I think went 
extremely well. I had the good fortune of meeting Ben's friend 
Cardinal Keeler and countless others that were there from 
America. Secretary Jackson, who led the delegation at the 
insistence of President Bush, and I had a number of meetings. 
But more important to the issue at hand, I met with Chairman 
Passy. I met with Jan Kubis, the Secretary General, there in 
Vienna. I met with Ambassador Minikes. And all of us in full 
agreement that the observer mission should be robust.
    I also met with Christian Strohal from ODHIR. I gather from 
mine and Christian's meetings and the manner in which the run-
up to whatever election observation is going to take place that 
Christian has a different view. I hope that you can help me and 
Secretary Powell can help me in having him dispel the notion 
that observing an election in America is any different than 
observing an election in Russia.
    I think America's credibility stands to be enhanced 
immensely. I think the OSCE's credibility in election 
observation will be enhanced immensely. In addition to 
appointing Barbara Haering, Chairman Passy also appointed Igor 
Oshtash from the Ukraine, interestingly, on my behalf, to 
observe the elections in Kazakhstan that are impending and 
others as well for Belarus. And we know that these things are 
taking place.
    This country's elections are important. Every person, every 
foreign minister, all the functionaries that I talked to in 
Belgium over the last four days were interested in the American 
elections. Contrary to some, not for the purpose of coming here 
to run any election--Jerry and I didn't run any election in 
Russia. We didn't receive interference or cause interference. 
The speaker at that time of the duma briefed us as well as 
other functionaries. And I, quite frankly, am at a loss to 
understand why existing political tensions, which are natural 
in an election year, would cause us to minimize the kind of 
observation.
    Now, I know that Secretary Powell doesn't control that, nor 
do you, nor do I. But the fact of the matter is that where our 
good offices can be influential in allowing for America's 
credibility to be enhanced, I see that as my responsibility. 
And I'm very protective of the role that we play in the 
Parliamentary Assembly. And I would assert to you that in 
election observation, ODHIR has a lot to learn from what we do. 
And what I said to Strohal was, ``Tell me what election you got 
elected to.'' And he understood me very well.
    Parliamentarians are accustomed to being elected. And 
whether they are from Kazakhstan or other places, fairness only 
dictates that we balance our observation. And I would like your 
reaction to my much too lengthy statement.
    Sec. Jones. Thank you very much for raising this question. 
Let me just address right away we will do our very best on the 
visa question to work to make sure that people get their visas 
at the appropriate moment. We'll want to work with you to make 
sure we know who they are in enough advance so that we can do 
that.
    In terms of ODHIR and the importance of their Parliamentary 
Assembly being election observers, let me first say that I am 
very apologetic that I did not include that in my formal 
statement. I should have. We certainly recognize the importance 
of the members of the Parliamentary Assembly being observers, 
because, just as you say, you have personal experience with how 
this is meant to work.
    I might also say that the issue of the United States 
inviting ODHIR, inviting the OSCE to provide observers in U.S. 
elections is an invitation that we have extended through 
several American elections now for the past four, five times. 
It's something that we believe is part of our membership 
obligations in the OSCE. We certainly signed up to this. This 
is something that we expect each and every other member to 
offer. And we are very, in fact, very proud to show election 
observers from wherever they may come how it is that we do 
assure a free, fair, transparent election in the United States 
of America.
    In addition, there are technological improvements that 
we've made that are of great interest to other countries who 
are looking at doing the same kinds of things and they would 
like to learn from the experience of the United States and 
various other states as to what the lessons learned are from 
technological advancements. And we will be very interested in 
showing the election observers that will be coming how this 
works. But I completely agree with you, Congressman Hastings. 
This is something that we are proud of. It enhances the 
credibility of the United States. It enhances the credibility 
of the OSCE for us to participate as forthrightly and as 
proudly as we should.
    Mr. Hastings. Thank you very much, Mr. Chairman.
    Mr. Cardin. Thank you, Mr. Chairman.
    Secretary Kozak, I want to follow up on your comments about 
the concerns about how we have treated, allegations made of how 
we have treated unlawful combatants, the problems in Iraq, 
which we have acknowledged. I very much appreciate your 
comments about the importance at the human dimension meeting in 
Warsaw to have a side event initiated by the United States. I 
think that's an excellent strategy, and I commend you for that.
    And I also thank you for your commitment to keep us 
appraised as investigations continue. I assume that includes 
the Commission, when you mention the OSCE, that you'll keep our 
Commission advised as to how the investigations are going and 
what they discover.
    I want to raise Guantanamo Bay for a moment, if I might. We 
were charged at a meeting of the OSCE Parliamentary Assembly by 
our colleagues challenging the manner in which we were treating 
the detainees in Guantanamo Bay. As a result of that, Chairman 
Smith and myself visited Guantanamo Bay, had a chance to see 
firsthand the manner in which we were treating the detainees 
there. We issued a report to the OSCE Parliamentary Assembly. 
And we emphasized the point that it's U.S. policy that we will 
not use torture. And it was verified by the State Department 
and by the administration that torture was not used.
    Just recently, there was a press account--and I want to 
stress a press account--by three British subjects who were at 
Guantanamo Bay that they, in fact, were tortured and pretty 
specific as to the type of conduct that they were subjected to 
at Guantanamo Bay. And they also indicated in their report that 
other detainees were subject to similar types of methods that 
would be considered torture.
    My question to you is whether we've heard from the British 
Government concerning these concerns. And secondly, regardless 
of whether we've heard from the British Government or not, has 
there been any followup to investigate these charges to see 
whether there was any truth in the allegations that were made 
by these subjects.
    Sec. Kozak. Well, first let me hit the last part of your 
question, Mr. Cardin. Let me qualify this by saying I don't 
think any of us are involved with the detention policy, and so, 
our knowledge is very limited. I get at more from the side that 
we--the same way you do. Other governments are asking us about 
it and comparing what we're asking them to do with what we ask 
for ourselves.
    I do not know whether the British government has raised 
this with us. We will check and get you an answer on that 
point. I do know that the British government as well as the 
governments, I think, of every other nationality of persons 
detained at Guantanamo have had access to their nationals there 
as well, of course, as the Red Cross has.
    And obviously there are a lot of motives for making 
allegations and so on. But the statement about torture, I 
think, clearly is policy. We went through some effort in the 
statement that was made on victim torture day that the 
President put out. And I think the effort there was to be as 
crystal clear as anyone can be that we do know what torture 
means. There isn't some new definition of it and that that's 
what's prohibited.
    Now, obviously you get into fine points of, you know, if 
somebody has to stand for an hour in the sun in the line is 
that a torture or not.
    Mr. Cardin. You're absolutely correct. I agree with your 
answer. And the nuances here are going to be difficult for us 
to evaluate. The charges made by the press account was very 
direct torture well beyond just deprivation of sleep. Although 
deprivation of sleep was one of the allegations. It went to 
physical abuse. It went to other types of torture. And I guess 
my concern is I hope that we take these allegations seriously 
and find out whether, in fact, there's any truth to these. The 
way that we handled the problems in Iraq by confronting them 
directly, to me, is the only way that we can handle these types 
of allegations.
    Sec. Kozak. I absolutely agree with you on that, sir. And 
one of the things I've been rather proud of, we had a similar 
spate of things coming out of the U.N. Commission on Human 
Rights, a little bit apart from this committee's jurisdiction, 
but still, the substance of it is exactly the same. And they 
did a report on Iraq that was--they had the High Commissioner 
for Human Rights or the Acting High Commissioner charge this. 
And we got a ton of questions, requests for information. Then 
we got a draft report and were asked to give comments on it in 
24 hours.
    An interesting process in that what I saw, even people who 
have worked in this area for years pushing other people to be 
forthcoming. And we're saying, ``How can they say that? This 
isn't true. That's not true.'' And I said, ``Look, the issue is 
not whether it's true or not. The issue is how we react to is. 
And if we just go back and say you can't ask me this because 
it's not true, that's exactly the kind of response we don't 
want to get from other people.''
    What we want to do here is set an example. And I think we 
did. We went back on each case in that report where there were 
allegations of abuse beyond the ones we knew about already and 
said, ``Please give us specifics so that we can look at this. 
It's not enough to tell us that somebody alleges that American 
soldiers shot up a car full of innocent people at a checkpoint. 
Where did this happen, when did it happen so that we can go 
follow it up?''
    It turned out in all but one case that they mentioned they 
didn't have that kind of information. And in the other case, we 
are following it up and trying to investigate and get more 
information where there was enough to identify a particular 
individual and particular time and place of the alleged abuse. 
So it's a process, as you mentioned.
    But I think our goal in this--first, our policy on torture 
is absolutely clear. And certainly physical torture is 
prohibited. If somebody's doing it, we want to know about it. 
We want to investigate it. We want to follow up. If someone 
wants to ask us about it, we're going to go back and ask for 
the particulars that allow us to take action on it. And I think 
that's the only way we can be and maintain our credibility.
    Mr. Cardin. I appreciate that. And I support that policy. 
And I hope that you will check to make sure that we followed up 
in regards to these allegations in regards to Guantanamo Bay.
    Sec. Kozak. I will.
    Mr. Cardin. Let me follow-up on the chairman's point about 
the 9/11 Commission report, which I thought is right on target. 
I believe we've had a lot of discussion here, a lot of hearings 
taking place. And I expect Congress will take some action 
before we adjourn this year to implement some of the 
recommendations of the 9/11 Commission report, particularly as 
it relates to the national intelligence director.
    But a significant part of this report deals with we need to 
win not only the act of war against terrorists and we have to 
be strong militarily in that regard, we also have to win the 
war of ideas. And that was perhaps the strongest weapon we had 
during the Cold War. Our values won out. And the people of East 
Berlin saw what was happening in West Berlin, and the Iron 
Curtain literally fell down, the Berlin Wall collapsed. We won 
the war of ideas.
    And we need to do the same thing in the Middle East. And 
that is why all of us are so passionate about this process that 
started in 1975 that no one really expected to be how it is 
today. But it sort of developed into a very important, 
effective tool for the battle of ideas. So I would just 
encourage the State Department to be more aggressive in trying 
to get more players, in the Middle East particularly, to be 
engaged in the Helsinki process, whether within OSCE or similar 
types of organizations. I think it's probably best within OSCE, 
because to try to reinvent it would probably take too long, but 
to expand it.
    As you know, we have the initiative--and Senator 
Grafstein's been one of the leaders on it--to expand the OSCE 
with our Mediterranean partners and to have higher expectations 
and greater participation. And I think the rewards could be 
great, including listening to the 9/11 Commission report and 
its recommendations. And I know the administration is doing 
this. And I just want you to know that this is one of our 
highest priorities. And anything that we can do on the 
Commission to assist in this effort and within the 
Parliamentary Assembly we will do.
    The last issue I want to raise deals with the economic 
issues, if I might. And that is, I mentioned in my opening 
statement that there's been in the last 12 months a lot of the 
tension spent within OSCE on the economic dimension starting in 
Maastricht, including the work of the Parliamentary Assembly. 
And probably the highest priority is to try to deal with 
corruption. Corruption, like your observations--at least it's 
our observations--that it's still widespread, particularly in 
the emerging states, and that it's a real impediment to the 
development of all three areas of our concern.
    So that the Maastricht document talked about developing 
strategies to fight corruption. We specifically in Edinburgh 
passed a resolution calling for the high-level meeting to 
develop a strategy to fight corruption. And I would just like 
your observations as to whether you believe this is a very high 
priority or just maybe not as high a priority. And if it is a 
high priority, what steps are we taking to develop a strategy 
or a position? And do we support a high-level meeting of 
ministers in order to advance this issue?
    Sec. Jones. The issue of fighting corruption is a very big 
issue for the United States. It's one where, including 
especially in the countries of the OSCE, which I know the most 
about, we believe it's really a key to success. You can't have 
prosperity, you can't have democracy, you can't have a rule of 
law if corruption is a big issue in any of these countries.
    It's something that I know the E.U. was particularly 
concerned about and really focused on as it worked with the 10 
new members of the European Union to get them ready for 
European Union membership. And it's an area in which the E.U. 
keeps working on with the countries that are coming down the 
pike in getting ready for close association with the European 
Union.
    It's also an issue that is worked on in detail by the OECD. 
The reason I mention that is that we want to be sure that what 
the OSCE does is complimentary to the work that's already going 
on with the E.U. and with the OECD on counter corruption, anti-
corruption measures.
    That said, we have some very good programs, bilaterally and 
through the OSCE, to try to address the particular issues that 
are related to corruption. And what we're working on with the 
OSCE is, again, to develop the institutions that are strong 
enough to counter corruption and sort of close down the 
loopholes, close down the opportunities for corrupt officials 
to be able to take advantage of institutions, to develop 
legislation that makes it harder for corrupt officials or 
corrupt people to work in countries and take advantage of 
situations, to make sure that the legal systems will support a 
transparent free market economy, which is, after all, the goal 
of the countries of the OSCE and of the United States itself. I 
can't speak to the question of whether a high-level meeting 
will happen. It's something that's under discussion. And I 
would like to offer to get back to you on how that conversation 
is developing within the OSCE, if I might.
    Mr. Cardin. Thank you. Thank you, Mr. Chairman.
    Mr. Smith. Commissioner Pitts.

HON. JOSEPH R. PITTS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Pitts. Thank you, Mr. Chairman. And thank you for 
holding this important and timely hearing. As our nation 
engages in the war against terror, it is vital that we build 
and strengthen relationships we have with friends and allies 
around the world I would like to submit my opening statement 
for the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Pitts. And I have three questions for the panel. And 
any of you can respond. It often seems that the OSCE takes a 
back seat to NATO when U.S. policy toward Europe is considered 
while, for their part, E.U. countries concentrate their own 
attention mainly on the countries preparing to join the E.U. 
The first question is what can be done to empower and 
reinvigorate the OSCE. How much might the E.U. be prepared to 
help us do that? And do you see Russia as a potential partner 
or obstacle in that endeavor.
    Secondly, I'd like to ask about the work of the Coordinator 
on Economic Environmental Activities, the High Commissioner on 
National Minorities, the Representative on Freedom of the 
Media. Their activities are usually conducted in a quiet and 
behind-the-scenes manner. My question is how do you keep track 
of their activities? Are you satisfied that these positions 
have justified their existence through particular 
accomplishments? And if not, how would you reform them so that 
they would be improved? Or should they be eliminated 
altogether?
    My third question has to do with terrorist financing. The 
OECD's financial action task force, the OSCE's Bucharest Action 
Plan and Action Against Terrorism Unit have provided technical 
assistance to assist law enforcement and regulatory authorities 
in terrorist financing investigations. How effective are these 
multilateral efforts, including the UNSCR and the U.N. 
Counterterrorism Committee to develop common standards and 
jointly free financial assets of terrorists? How can they be 
made more effective, for instance, in addressing key 
outstanding issues such as how they raise money, from whom, and 
how they spend the money?
    So if we can start with the OSCE and NATO question, I'd 
appreciate it
    Sec. Jones. I would put it this way, the OSCE and NATO are 
very different organizations. NATO certainly is an organization 
of like-minded countries, but it has a military operational 
focus. The OSCE, because it has the three dimensions, has a 
broader focus. And we find it an organization that is very 
flexible. It's very easy to move quickly with the OSCE.
    I use Macedonia as a very good example three years ago when 
we suddenly needed to have observers to make sure that the 
agreements that were reached at Ohrid could be implemented 
properly. It was the OSCE that was able to put forward those 
observers within days. And it was something that really helped 
the security situation in Macedonia.
    The European Union in addition, of course, has focused on 
the programs, legislation development, et cetera, that was 
necessary to make it possible for these 10 new countries to 
join, to be invited to join the European Union as happened 
earlier this year. But I would argue there are very many of the 
developments, very many of the improvements that the E.U. 
pressed on these countries that are very much in line with the 
improvements that all of us wanted. In fact, we take great 
credit, we're very proud of the collaboration that we undertook 
with the E.U. in very many of these areas to make sure that we 
were all focused in the same direction on fighting corruption, 
on border security, on rule of law issues, on developing 
democracy, on making sure that there could be vetting for 
security officials and that kind of thing.
    The European Union, now that it has enlarged, is even more 
interested in its new borders, in the countries around its new 
borders, so is taking an even more active role in the OSCE as 
an organization--of course, the member states do in any case--
in working with the OSCE, with us in the OSCE to address some 
of the pros and conflicts to the instability kinds of issues 
that we think are very, very important to address.
    Whether it be Moldova, Transnistria where we have--I'd like 
to really commend the leadership of the head of mission there, 
Ambassador Bill Hill, for really pushing the initiatives, 
coming up with ideas for how to address the outstanding issues 
related to the frozen conflict there between Transnistria and 
Moldova. The same thing I would like to commend in terms of 
greater E.U. participation, interest, activism in looking at 
how to assure a resolution of the issues in Georgia involving 
both South Ossetia and Abkhazia. Nagorno-Karabakh we already 
have a very good participation by a European Union member 
State, by France, as a co-chair with the United States and 
Russia in trying to push for improvements there.
    I really look at these three organizations as being very 
complimentary to each other. There is a way that each of them 
can work together. There's a niche for each of them. And we 
constantly are looking for ways to increase the ability of all 
of us to do the work that we think is necessary by taking 
advantage of the best parts of each of these organizations to 
achieve U.S. goals and the goals that we have set together with 
the European Union, with NATO, with OECD and, frankly, also 
with the Council of Europe.
    On the national minorities question that you asked and the 
free media, we really appreciate the very hard work that the 
representatives for each of these special focuses undertake. We 
stay in very close touch with them. They come regularly to 
Washington to talk with us. They are constantly in conversation 
with Ambassador Minikes in Vienna.
    They report back to the perm representatives. And they stay 
in touch with our embassies, with the U.S. embassies, as they 
travel in each of the countries where they have particular 
issues that they're working on to pursue. So I use every 
opportunity myself to stay in touch with them and to see them 
at the margins of the general assembly or at OSCE meetings when 
they come to Washington. So I really have a great respect for 
the ability of these extremely capable people to do the kind of 
work that they are meant to do and to do it in a way that 
achieves the objective and gets the changes and behavior that 
we're looking for.
    On terrorist financing, we think that the FDS [ph] is a 
very productive organization. The work in the U.N. Security 
Council in the U.N. to pursue terrorist financing are all ways 
that we work to look at ways and to designate organizations, to 
designate people whom the international community should assure 
can no longer provide financing to terrorists. There are people 
who know a lot more about exactly how they all work than I do, 
but those are mechanisms that we use very, very regularly and 
that the member states use very, very regularly.
    Countries from all over the world, governments from all 
over the world are constantly bringing forward names of people, 
names of organizations that they'd have considered by the U.N., 
by us on a bilateral basis to assure that terrorist financing 
cannot continue and that the international community takes as 
tough a measure as they possibly can to make sure that these 
organizations, that these people cannot continue to use 
international banking services to support terrorist 
organizations or terrorist events.
    Mr. Pitts. Thank you. Anyone else have anything to add? 
Secretary Kozak.
    Sec. Kozak. I'd just say on the media freedom 
representative and the way they work, I had a chance to watch 
this firsthand in Belarus. And it's true that when they have a 
government that's being cooperative that they tend to do it 
behind the scenes and low key for obvious reasons. They get to 
hear our suggestions on your media law. The government goes and 
takes the measures, and then the government takes credit itself 
for doing the right thing.
    But in places like Belarus where they got nothing but grief 
from the regime in power for a long time with the predecessor 
represented in Mr. Duve, the government said he could visit but 
he couldn't bring his assistant who was an American who 
observed previously at our embassy there. Now I see with Mr. 
Hardy [ph] they've changed the pretext, but the result is the 
same.
    But in those cases, as Beth was saying, they got 
information from us, they got information from other member 
state embassies and then they published reports and denounced 
what was going on in a very public way. So they are able to 
play it both, sort of, the behind the scenes, private 
incremental improvement track or if that's not working, public 
pressure. And I think they made a pretty good job of it.
    Mr. Pitts. Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much. Senator Grafstein. Senator 
Grafstein?
    Mr. Grafstein. Well, I'm really privileged to ask our 
friendly neighbor, the United States, and their key people at 
the State Department some questions about an interest of mine 
which I share with all of the parliamentarians on this side, 
the goals and the objectives and the processes of the Helsinki 
Accord. And we agree with everything you've said, certainly I 
do, with respect to its importance and its growing importance. 
I only give you just one current example.
    Because of leadership of Representative Smith and Cardin 
and Alcee Hastings and others, anti-Semitism became an issue 
and was really, in effect, by the Parliamentary Assembly. And I 
was delighted when Secretary General Kofi Annan, when there was 
tremendous infighting about having a conference, focused purely 
on anti-Semitism took our resolution, which we worked so hard 
on, and used that. And he gave us credit for that. So sometimes 
a junior organization like the OSCE can impact the major 
organization.
    I just want to make two comments and bring your attention 
to some activities that I think we're doing that help you in 
your work. From my observation--and I've noted it again in the 
questions this morning--the work of the parliamentary 
dimension, the OSCE Parliamentary Assembly, is sometimes 
neglected by our various ministries. The two examples that you 
give, the Georgian election monitoring example, that was led by 
Bruce George, the president of the OSCE. And I was the deputy 
on both of those missions.
    And quite frankly, I think we led those missions. The ODHIR 
was there. They were very supportive. They were excellent. But 
quite frankly, I think that parliamentarians have a lot more 
experience in connection with elections and what's important 
and what's not important in order to instigate the 
parliamentary process.
    And again, when you mentioned Ambassador Hill, he's done a 
fabulous job. But I'm also--and Kiljunen of Finland--leads the 
parliamentary side of the Moldova Transnistria problem. And I 
happen to be on that as well, so I can speak from firsthand 
experience that there the leadership of Mr. Kiljunen has been 
outstanding. And I would just hope that when you take a look at 
the information you garner from your minister, from your 
diplomats, you would take into account the fact that the OSCE 
has two dimensions.
    There's the ministerial side, and there's also the 
parliamentary side. And we've been working very hard, as Chris 
will tell you and as Ben will tell you, to make sure that the 
two institutions, one in Vienna and ours at Copenhagen, work 
together. We now, in effect, have an ambassador there. We now 
have a full-time ambassador and officer, Ambassador Nothelle, 
precisely to make sure that the two arms of the OSCE work in 
harmony together. We have the same objectives. Our processes 
are different. That's a comment.
    Secondly, on corruption, again, parliamentarians have taken 
a huge lead in examining and focusing on parliamentary 
corruption, which is a huge part of the overall problem. And I 
must say that progress has been made, remarkable progress has 
been made with the organization called GOPAC. It was started in 
Ottawa several years ago, the chairmen of it, worldwide. It's 
the Global Organization of Parliamentarians Against Corruption. 
The head of that is John Williams, M.P., from Canada. The vice 
chairman is Roy Cullen. And we are trying to integrate that 
process into the OSCE as well so that we compliment each other. 
So I just bring that to your attention. It's remarkable work, 
and it works at the parliamentary level.
    My final comment and question--I only have really one 
question--is the Middle East. Again, we have been engaged in 
trying to move forward a Middle East agenda. And I think we've 
concluded, many parliamentarians have concluded, that the 
political track is stuck. It's very hard to move it for all of 
the things that we know. But the economic track, which is the 
second basket of the OSCE, is open.
    And hence, we've been focused, Representative Cardin and 
myself have been focused, on the economic dimension of the 
Middle East. And I'm pleased to say that I've just returned 
from a conference in England where I talked about the OSCE as 
an instigator of economic reform in the Middle East, Arab 
Middle East. And it was very well received. And that paper, 
I'll send it along to you.
    So my question is that has the department, has the 
Secretary of State looked at the question of the economic 
reforms necessary in the Arab Middle East in order to instigate 
civil society and democracy. Now, I've read with great care the 
G-8, the last G-8, declaration, which I think is good. I think 
the President's leadership on economic assistance and 
democratic development in that part of the world, the $150 
million, is excellent. I think it's too little. But I would 
wonder whether or not you've got a coherent strategy for 
following up on the economic dimension as it applies to the 
Middle East.
    And I conclude with this one fact: The region in the world 
that suffered the most as a result of September 11th--and I 
call this the auto-da-fe of September 11th--was the Arab Middle 
East. Their economies are suffering. And we're sitting on a 
time bomb there unless we really address the economic problems 
in that region of the world. So it's a question for you. And we 
intend to follow this up.
    Ben and I fostered a resolution at the OSCE, was 
unanimously approved at the Parliamentary Assembly in 
Edinburgh. I've given a paper on that, and we intend to follow 
that up in Rhodes at the end of this month. So that's my 
question. Are you in sync with us on that? And how can we help 
each other to foster that priority?
    Sec. Jones. Senator, thank you very much for your comments. 
I very much appreciate the participation of the Parliamentary 
Assembly in the work of the OSCE. And I should have 
acknowledged that with greater clarity. But it is something 
that we do recognize and very, very much appreciate. Because, 
just as you said and some of your other colleagues in the 
commission said, there's nothing that substitutes for personal 
experience and knowing what is right, what makes sense, what is 
important and what is somewhat less important in an election.
    Mr. Grafstein. Just a comment on that, I was here [ph] 
making that speech here because I intend to make it in Ottawa 
next week to my own government. So you're not alone.
    Sec. Jones. I'll just make a brief comment on the economic 
track for the Middle East reform. As my colleagues in the 
Middle East bureau began working to develop some of the ideas 
on reform in the Middle East, thinking about all the baskets 
that made the most sense, we took a look, of course, at a U.N. 
report that really focused on political reform, economic reform 
and education reform. So those were the three areas that we 
also adopted as the areas that we should concentrate on in 
working with reformers in the Middle East.
    My colleagues in the Middle East bureau have done that, 
have been doing that. And the results of some of those 
conversations is what informed the G-8 in putting forward the 
proposals that came out of the G-8 summit, which, thank you 
very much for your attention to those.
    I can't tell you right at this very moment how those will 
be developed. My colleagues in the Middle East bureau are a 
little bit more focused on some of the details of that. But as 
I said earlier, the next step in pursuing some of these issues, 
as with the forum for the future event, sort of, pioneering 
event that will take place in New York--and then there'll be 
hopefully a followup conference that we'll still be working on. 
But our Middle East colleagues completely recognize that it 
takes all three areas in order to make progress, including the 
economic one.
    And my colleague, Assistant Secretary Rademaker, would like 
to also offer some comments on how in another area we are using 
OSCE mechanisms to work with the Middle East.
    Sec. Rademaker. Thank you. A number of you have raised this 
question of the applicability of the OSCE and its experiences 
to the Middle East. And I just wanted to volunteer the comment 
that the core of the OSCE's approach to security is an 
integrated one where human rights and democracy are integrated 
with increasing economic freedom and security and confidence-
building measures. And this approach was extraordinarily 
successful over the last 30 years in bringing about the end of 
the Cold War and the demise of the Soviet Union, the advent of 
freedom in Central and Eastern Europe.
    The effort that's now underway through the G-8 with regard 
to the Middle East has at its core the same basic idea. And so, 
it simply has to be the case that there are lessons that can be 
learned from the OSCE that are of application in the Middle 
East. And I think those of you who have raised this issue are 
correctly focused on that possibility. And you are asking very 
good questions. You're asking the right questions.
    We've seen from our experience in the Western Hemisphere 
that when the political environment is ripe for it, there is a 
desire to look--there can be a desire to look to the OSCE and 
its experiences and draw from it. And that's precisely what's 
happened in the security area in the Western Hemisphere over 
the last few years.
    We have within the arms control bureau an office that's 
devoted to promoting these kinds of confidence and security 
building measures around the world. They were very much 
involved in the efforts that have taken place over the last few 
years here in the Western Hemisphere. They are also active in 
Asia and in the Middle East.
    And they will continue pursuing this. I think your comments 
will inspire us to redouble our efforts to see what we can draw 
from--Senator, your comments about the economic dimension I 
think are very well taken. And we'll take a second look at 
whether we can draw anything from that. But we do have people 
that are focused on this, and we will be glad to report back to 
you at some point in the future on how we're coming.
    Mr. Smith. Thank you, Senator Grafstein.
    I just have a few followup questions and final questions.
    Secretary Rademaker--and to all of you--one of the great 
leadership initiatives that the Bush administration has 
undertaken is the attempt to have a zero tolerance policy. As a 
matter of fact, President Bush issued a zero tolerance policy, 
vis-a-vis, trafficking in our military. The Trafficking in 
Victims Protection Act of 2003 actually empowers the Department 
of State and all of the agencies of government to not only do 
whatever it can to go after those who are complicit in 
trafficking, but to take away contracts from contractors, 
vendors with whom we buy their goods and services if they are 
complicit in trafficking.
    But does zero tolerance policy which has now been adopted 
by NATO at U.S. leadership--Nicholas Burns has done a marvelous 
job. Elizabeth Pryor, who used to work there at that shop, has 
been working, as well as Maureen Walsh and many on our staff to 
try to--you know, the peacemakers or peacekeepers certainly 
when they are deployed become a ripe target for the traffickers 
to bring in women who are then exploited. And it seems to me 
that the next step is the U.N., to make sure that their 
deployments hopefully have a zero tolerance policy.
    My question to you, Mr. Rademaker, is the forum for 
security and cooperation in Vienna perhaps another venue that 
ought to be utilized to take this message, that I don't want to 
hear this ``boys will be boys'' garbage. These are women who 
are being exploited. They're being raped. And again, the 
administration has a sterling record in saying we will not 
allow this to happen.
    We have a joint hearing with the Armed Services Committee 
on September 21st at which we will look at what the Department 
of Defense, the Wolfowitz memo, how it's being implemented. 
General LaPorte, our former Supreme Allied Commander for South 
Korea, has done a magnificent job, as has his staff, in 
implementing a zero tolerance policy. Joseph Schmitz, the I.G., 
has done some very groundbreaking work for the Department of 
Defense in terms of both Bosnia and South Korea.
    And my point is--every avenue or venue that can be 
utilized--and certainly I think you probably have already 
thought of this. But that might be an area, you know, the 
security cooperation forum in Vienna for doing this as well. 
Because obviously there are some countries like the Ukraine, 
not part of NATO. They've sent peacekeepers to trouble there is 
that could be brought into this.
    If you could.
    Sec. Rademaker. Well, Mr. Chairman, let me begin by stating 
the obvious, which is that you provided outstanding leadership 
on this question of trafficking. You know and I know that the 
Congress passes lots of bills and lots of resolutions year in 
and year out. And many of them don't make a big difference in 
the real world.
    But the work that you and some of your colleagues did in 
the area of trafficking leading up to the enactment of the 
Trafficking in Victims Protection Act was an example where the 
action of Congress really has made a difference. You have 
changed U.S. foreign policy. And as a result, I think life is 
slowly being made better for a lot of victims of trafficking 
around the world.
    With regard to your specific idea of using the Forum for 
Security Cooperation to raise awareness and begin talking about 
ways to address some of the problems that we've seen with 
peacekeepers in places like Bosnia, this is not something that 
we have talked about. But I do think it's a very creative 
suggestion. And so, what I would like to do is take it back, 
and I will give it very favorable consideration.
    Because, as I noted in my remarks, the forum for security 
cooperation is a valuable tool because it is so flexible. And I 
think that very flexibility would enable it to accommodate this 
issue, which is something that should be a priority. And we can 
help make it a priority.
    Mr. Smith. I appreciate that very much, Mr. Secretary.
    Sec. Jones. Could I just add?
    Mr. Smith. Yes.
    Sec. Jones. I'm sorry, Mr. Chairman. I actually brought 
with me the decision that was taken at the NATO summit by the 
leaders on exactly this trafficking question just to 
demonstrate the importance that all of NATO attaches to this. 
And thank you for recognizing the leadership role that 
Ambassador Nick Burns played in this.
    I also wanted--I just did a quick look again--there are two 
things that you mentioned that are specifically addressed in 
this. Number one, this applies to partners as well. So Ukraine 
would have to adhere to the principles that are enunciated in 
this document. And it also applies to contractors. This is 
something in which NATO--there is a specific sub-paragraph that 
speaks to NATO contractors and asks them to participate and 
pursue the anti-
trafficking policy that NATO has adopted.
    In terms of Bosnia itself, if I could just say that the 
former ambassador to Moldova played a very aggressive role, 
Ambassador Pamela Smith, in talking with NATO about this in the 
first instance and specifically about how this plays out and 
what kinds of policies might be, at best, most appropriately be 
taken in Bosnia to assure adherence to these principles. So let 
me just assure you that this is something that's very much on 
the agenda at NATO. And we're ramping up at the OSCE as well 
with a new representative who's been named to pursue this 
specifically.
    Mr. Smith. Thank you very much, Ms. Ambassador. Let me ask 
you on the issue of Kosovo. You know, many of us were concerned 
about the spike of violence. As a matter of fact, Archbishop 
Artemdja had visited with many of us and said not only are very 
important Orthodox Christian sites being destroyed, people are 
being killed. And then there was that flareup of violence. What 
is being done to ensure that the minority rights and the return 
processes are being respected?
    And just let me ask you a couple of other questions. 
Yesterday I was part of a forum on the upcoming Ukrainian 
elections. And I know a number of people, Richard Armitage and 
others, have made their way to the Ukraine to raise concerns 
about the lack of free media, that especially the broadcast 
media has been very severely censored or biased, I should say. 
And, you know, a free and fair election isn't just, as we all 
know, on the day of the election. It's everything that leads up 
to it.
    And the same goes for Belarus.
    And, Mr. Ambassador, you might want to speak to this as 
well, where we've got the parliamentary elections coming up and 
Lukashenko looking to extend his ability to stay in office, 
become another one of those presidents for life. We're trying 
still to get the Belarus Democracy Act up on the floor. It has 
been blocked. I don't know why. We passed it out of committee 
several weeks ago. And that would only be of some minor, 
certainly of no impact, on the immediate term. But on the 
intermediate term, it might, in terms of empowering civil 
society and the like.
    But my question is if these elections are adjudicated to be 
unfair and far less than OSCE standards and international 
standards, will there be any penalty. The concern is that, you 
know, we issue reports, we make comments. But at the end of the 
day, people like Lukashenko just fold their arms and say, ``Go 
ahead, hit me. You haven't even laid a glove on me.''
    And I'm concerned, especially again, with the Ukraine, a 
country, you know, rich in people and culture and political and 
geopolitical importance. This election is probably in the 
process of being hijacked. And corruption obviously remains a 
very real concern there.
    So if you could touch on those issues, I would appreciate 
it.
    Sec. Jones. On Kosovo, all of us share your deep concern 
about what happened on March 17th. That was a terrible turn of 
events. We are now, however, very encouraged by the activism, 
the initiatives that have been undertaken by the new senior 
representative for Kosovo that has been appointed by Secretary 
General Kofi Annan, Mr. Jessen-Petersen. He will be joined very 
shortly by, I believe, an extremely good American deputy, 
Ambassador Larry Rossin.
    We have had the international members of groups that work, 
particularly, to support the UNMIC efforts to pursue standards 
and to pursue implementation of standards in Kosovo, are very 
encouraged by the great activism of the new UNMIC secretary 
general, senior representative, especially in connection with 
how much they're pushing, as have we, the rebuilding of the 
churches and schools and buildings, houses, et cetera, that 
were damaged so severely in the March 17th disturbances.
    There will be a series of meetings next week in New York 
among the countries that are most concerned about Kosovo, most 
concerned about pushing for progress in Kosovo. So we look 
forward to really grinding down through some of these issues. 
The most important part of this is to demonstrate to the 
Kosovars of whatever religion that it is up to them to take 
responsibility, that that is the essence of the standards that 
we're pushing to try to turn over as much responsibility to 
them as possible so that they can take charge of this 
territory.
    On the Ukrainian elections, I can only tell you how much--
you know we've worked very hard to make clear to every possible 
element of Ukrainian leadership, Ukrainian civil society, free 
media, et cetera, that the future of the Ukraine, the future of 
Ukraine's integration into trans-Atlantic and European 
institutions depends on a free and fair election. And just as 
you very rightly said, this is exactly the point that we've 
been pressing.
    Free and fair elections don't just happen on election day. 
They happen in all of the processes related to elections that 
take place months, if not years, before. We have been, frankly, 
working with the Ukrainian government on Ukrainian elections 
for three years on the upcoming Ukrainian. And, you know, to 
the point that at times they said, ``It's too early. It's too 
early.'' I said, ``No, it's not.'' It's not too early to make 
sure that the institutions are in place, that it is clear to 
everybody in the presidential administration throughout the 
country that they may not misuse presidential administration 
apparatus to promote one candidate over another, that there 
must be equal access by the candidates to the media. The 
exercise of free media, permission to allow media to operate is 
an element of assuring a free and fair election.
    Mr. Armitage was there in March pursuing this. I had the 
opportunity to address this question with a delegation of 
senior Ukrainians who came just this week, the former foreign 
ministers Linko [ph] and a member of the presidential 
administration, Mr. Fiealko [ph] to make exactly those points. 
Most importantly, virtually every single leader at the NATO 
Ukraine meeting at the summit in Istanbul made exactly those 
same points, exactly those points. So it's abundantly clear to 
the Ukrainian leadership what it is that we're talking about, 
what it is that's necessary to assure a free and fair election 
and how critical this is to Ukraine's stated desires to be 
further integrated into Europe and the trans-Atlantic 
community.
    Mr. Smith. Ambassador, would you want to take on Belarus?
    Sec. Kozak. Well, you're quite right, Mr. Chairman, that, 
you know, there's a crucial election coming up in Belarus at 
the middle of this coming month that now includes this 
referendum on amending the constitution to get rid of the term 
limits and allowing President Lukashenko run for yet another 
term. I think some of the conditions for the election are 
terrible. We've all seen them. Media has been heavily 
repressed, fines, criminal libels. Political leaders have been 
put in jail as a way of intimidating them. The control of the 
election machinery remains in the hands of the government.
    But there have been some positive developments in Belarus 
as well. Over the last several years, working through our party 
institutes, NDI and IRI and with the Europeans and with the 
OSCE, with the field mission there, a lot of training has gone 
on of pro-democratic type forces. And even before Lukashenko 
announced this referendum, the polling that we were seeing was 
showing the opposition, generic opposition candidates being 
within four points of pro-Lukashenko candidates in the 
parliamentary election despite all of these disadvantages. In 
part, that's because they've been forced to go out and do it 
the old fashioned way of knocking on doors and talking to 
people, which, as you know, has its effect.
    He's got a big challenge on this referendum. The 
Belarussian constitution requires that a majority of registered 
voters vote in favor of a referendum for it to pass. So if you 
figure he's got 70 percent turnout, which is about normal 
there--even if he got 70 percent of the vote, he'd still fail 
on the referendum in an honest count.
    In the last year, I don't think his numbers have been above 
30 percent in terms of people saying they either favor strongly 
or might possibly favor his being allowed to run again. 
Consistently over 50 percent have said they're against it. So 
it's going to take some powerful and obvious fraud. It's not, 
you know, shifting numbers by 5 percent or something here. It's 
going to take some major stuff and I think bears watching.
    I think the key--you asked the question what's the penalty. 
There's not much way to penalize the country more than he's 
already penalized it himself through self-isolation from not 
only the Western world, but from even what's going on in the 
immediate region. But there may be ways--and this is something 
we need to look at more generally--of how do we hold people 
accountable, people who participate in election fraud, people 
who should be ensuring genuine elections and fair conditions 
and so on but instead use their authority the other way. And 
you had mentioned earlier the value of targeted sanctions. 
There may be some percentage to working it there.
    I have watched in this particular case, I would say if the 
people in the bureaucracy in Belarus had their choice, there 
would have been a different president a long time ago. But 
they're afraid. They're afraid of losing their jobs. They're 
afraid of what happens to their families. And maybe if they had 
to worry about concerns in the other direction of not carrying 
out fraud, they might be more inclined to do their job 
honestly.
    Mr. Smith. Thank you very much, Mr. Ambassador. I just have 
two final short questions. And we, the Commission, deeply 
appreciate your patience. But these issues are very important 
to our Commission and I know to you.
    One of the recommendations that came out of the Berlin 
conference, though, in the implementation area had to do with 
hate crimes and the whole issue of law enforcement. We're 
working with Ambassador Ed O'Donnell on a provision or an idea 
that Paul Goldenberg from the American Jewish Committee is 
working up, and our Commission, that would establish a 
``trainers of the trainers,'' so that police and law 
enforcement personnel would be trained by those who know it 
intimately, but it would be peer-to-peer type of training.
    It will take some money, and it's not yet to the point of 
final completion. But I would just strongly encourage you, 
Madam Secretary, Madam Ambassador, to look very favorably on 
this. Because I think, you know, the more we have this kind of 
training, you know, a well trained policeman knowing--and this 
is part of the problem. Very often acts of anti-Semitic crime 
are just thought of as mere vandalism when it's very clear that 
it's something that goes far beyond that. And this would apply 
to all hate crimes. So I would ask you to take a good look at 
that recommendation.
    And secondly, and again, this is my final question and then 
I'll go to Mr. Ben Cardin for anything, and Joe Pitts. Joe's 
not here. With regards to Kazakhstan, again, I find it 
extremely disconcerting that they want to be the chairing 
office for 2009. And again, that has to be done in calendar 
year 2006. Especially since Nazaviev [ph] actually signed--I 
think it was before you were ambassador in 1992. And he signed 
the Helsinki Final Act and all those documents and follow-on 
agreements that followed, including the Moscow statement in 
1991.
    Would we be willing to withhold consensus unless they 
either repudiated that internal affairs and some of those other 
egregious statements that the group of nine have signed onto? 
Because that would radically alter the OSCE. If internal 
affairs can be put forward as a hedge when human rights 
discussions occur, we would be hindered in our ability to 
promote human rights.
    Sec. Jones. Thank you for your support for police training 
on hate crimes. That is something that makes a great deal of 
sense. I don't have it in my head exactly where the process 
stands on getting that going. But it's certainly an area which 
France, for example, has been very forthright and very much 
wants to pursue and is pursuing.
    On Kazakhstan and on their desire to be Chairman-in-Office, 
we've made very clear that Kazakhstan accepts that our support, 
frankly, support for not just from the United States, but from 
many, many other member States depends on their adherence to 
all of the principles of the OSCE. That's certainly a watchword 
that we have been using for, lo, these many years as a way to 
discuss with them why it is our business to talk with 
Kazakhstan or with any other country about democracy issues, 
human rights issues, economic reform issues, whatever it may 
be. Because they have taken upon themselves their own free will 
to sign up for each of the principles, to adhere to each of the 
principles of the document when they first joined the 
organization.
    I can't tell you that we would withhold because of this 
reason or that reason. We'll take it all together when we get 
to that point. But certainly a pledge to adhere to everything, 
one of the principles, and demonstration of adherence to the 
principles is what's important.
    Mr. Cardin. Well, let me thank all three of you for your 
testimonies here today. I wanted to follow up just very quickly 
on Senator Grafstein's point about the anti-Semitism followup 
in using the model for the United Nations and what we can 
expect in the United Nations in regards to following up against 
anti-Semitism. It's been a rough road there, and I'm just 
curious as to whether we have a strategy or expectations as to 
how the United Nations may play a role in the attention that we 
have brought within the OSCE region to the rise of anti-
Semitism.
    Sec. Kozak. Well, Mr. Cardin, we've actually been working 
in the U.N. for the last few years as well as in OSCE. I'd have 
to say I think you've made more stellar progress perhaps. But 
there have been some----
    Mr. Cardin. You actually may have made more progress in the 
United Nations, considering where they were. I mean, it's----
    Sec. Kozak. Yes, at least it's not Zionism as racism any 
more. And in fact, we were pleased in this last U.N. Commission 
of Human Rights session in Geneva this spring. We managed to 
get good, strong references, condemnations of anti-Semitism 
into three separate resolutions: a resolution on religious 
intolerance, a resolution on democracy and racism and another 
one on the follow-up to the Durban conference, which we don't 
like the conference, but we do like the reference to anti-
Semitism in that document.
    We were successful last year in the UNGA in getting two of 
those resolutions with anti-Semitism references in them. And 
we're going to go for all three of them this fall as well, and 
I think with reasonably good prospects. So at least the U.N. 
organs are making appropriate references and acknowledging the 
problem as a serious problem. Doing something about it is a 
different issue. But at least we've got [inaudible].
    Mr. Cardin. We wish you the best in your efforts there. I 
do think Senator Grafstein's point is correct, though. As OSCE 
has raised the bar, it makes it a little bit more difficult for 
the United Nations to continue its path in this regard. So 
perhaps there's hope.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Cardin.
    I want to thank our three very distinguished witnesses for 
your excellent testimony and your great work on behalf of our 
country. This Commission appreciates it as well as the give and 
take of, you know, we make recommendations, you make them back. 
It's the best, I think, in the interest of the executive branch 
and legislative. So we do thank you for that.
    We do have some additional questions that we'd like to 
submit. We've run out of time. If you could get back to us for 
the record, we'd appreciate it.
    Sec. Jones. Thank you, Mr. Chairman. We very much 
appreciate the interest of the Commission, we truly do.
    Mr. Smith. Thank you.
    Sec. Jones. Thank you.
    Mr. Smith. Appreciate it. The hearing's adjourned.
    [Whereupon, at 12:19 p.m. the hearing was adjourned.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Ladies and Gentlemen, I want to welcome you to this U.S. Helsinki 
Commission hearing on ``Advancing U.S. Interests through the OSCE.'' I 
am very pleased to have several distinguished panelists present today 
and look forward to hearing their testimonies.
    The title of this hearing is no accident. Since its inception 
nearly thirty years ago, the OSCE has been one of the staunchest allies 
of the beliefs and goals of the United States. It has multiplied the 
avenues through which we can promote the rule of law and human rights. 
It pioneered the broad definition of security that recognizes true 
stability does not depend on stockpiles of arms or large standing 
armies, but on democratic principles, respect for human rights and good 
neighborly conduct. It legitimized the idea that a nation's domestic 
policies are the rightful concern of other OSCE States. As it 
reinforced these critical standards, the organization also evolved into 
a strong and flexible body with arguably more tools for addressing 
regional problems than any other international institution. The broad 
membership, the clearly articulated principles and the well-designed 
political structure make the OSCE an especially appropriate partner of 
the United States.
    Today we have the opportunity to hear the State Department's vision 
of how this organization can be most effectively utilized, and how 
these key policymakers intend to initiate activities and support 
policies through the OSCE that will advance U.S. objectives. Let me say 
at the outset how appreciative I am of the diligence and dogged 
persistence of the US Ambassador to the OSCE, Ambassador Stephan 
Minikes. He has done a tremendous job and deserves much credit and 
recognition for his leadership in Vienna.
    This year we had an excellent example of how the initiative can be 
seized to make impressive contributions to the well-being of the entire 
region, while focusing on issues of particular concern to the U.S. The 
Arms Control Bureau of the State Department deserves praise for seeing 
the opportunities afforded at the OSCE to contribute to hard security 
issues. They presided over a strong U.S. chairmanship of the Forum for 
Security Cooperation, helping to revitalize that part of the 
organization, then used it to pass agreements on management and 
destruction of excess ammunition, export controls on man-portable air 
defense systems and the transfer of light arms. The work in the FSC 
complimented that undertaken by the organization as a whole to conform 
travel documents, to address proliferation of weapons of mass 
destruction, and to discuss better cooperation on border security and 
the control of shipping containers.
    Every one of these is of key concern to the U.S. and every one is a 
transnational issue, requiring that we address it multilaterally. This 
is the kind of robust use of the OSCE that is in our interest and that 
we would like to see supported throughout the U.S. Government.
    Over the past thirty years there has also been great growth and 
development in the human dimension, an area of keen interest to this 
Commission. Next month the OSCE will hold the annual Human Dimension 
Implementation Meeting in Warsaw. This meeting is a regular opportunity 
for the participating States to review each other's compliance with our 
mutual Helsinki commitments, to encourage better implementation and 
publicly question activities that are not consistent with the strong 
standards of the OSCE. We look forward to a strong presence and 
participation at this conference and to hearing the Department's 
priorities for the meeting.
    We hope that the sense of priority and urgency that characterized 
human rights advocacy during the Cold War will not lag now, at a time 
when we see examples of the starkest disregard of human dignity, and 
our nation and region suffer acts so brutal they were unthinkable only 
a few years ago. Understanding that upholding human rights is not only 
the policy that is ethically consistent with our ideals, but is 
fundamentally linked to our national and regional security, has never 
been more important. If a nation disregards public opinion in the 
oppression of its own citizens, it will also ignore violations to the 
security of its neighbors. As we came to see in the Balkans, we ignore 
the warning signs of abusive acts at our own peril.
    We have a great deal of work to do in this field. The lives of many 
are still on the line in the countries of Central Asia, and 
periodically elsewhere in the OSCE, especially if one is a democratic 
activist, outspoken journalist, or religious proponent. The creeping 
shadow of a rising anti-Semitism continues to threaten Europe. And the 
blight of trafficking in human beings is increasing.
    Addressing economic development and environmental challenges is 
also important. These are linked to fundamental matters of opportunity 
and trust in government and to stabilizing societies through the 
confidence born of economic well-being. My colleague Ben Cardin, who 
has a special role in this area, will elaborate more on the topic. Let 
me just mention that it has never been more timely, and the less 
developed areas of the OSCE need consistent attention if we are not 
going to see political will undermined by the impatience that comes 
from economic necessity.
    We also hope to hear what the administration's focus is for the 
forthcoming Sofia Ministerial Meeting in December. The issue that 
probably will have the greatest impact on the evolution of the 
organization and on our ability to further U.S. interests through it, 
is the selection of the next Secretary General. Members of this 
Commission are actively interested in seeing a strong leader in this 
office. As you know, we have written to Secretary Powell on the matter 
and will be following up in the near future. The world has changed in 
recent years for all of us. As the OSCE takes on daunting challenges, 
it will benefit from a potent public face and a strong managing hand to 
compliment the political role of the rotating Chairmanship.
    Other important issues that should be considered in Sofia include: 
addressing expanded election commitments, such as electronic voting and 
voting rights of internally displaced persons; enhancing the capability 
to fight human trafficking; continuing efforts on anti-Semitism; the 
appropriate role of the Mediterranean Partners; and, addressing the 
concerns evinced in the statement of July 8 by nine CIS members.
    Regarding the current discussions concerning refining and 
strengthening the OSCE, I look forward to the administration's views on 
the various comments by the Chairman-in-Office, Bulgaria's Foreign 
Minister Ambassador Solomon Passy. He has expressed support for a 
``better thematic as well as geographical balance within the OSCE'' as 
also called for by nine CIS countries. Ambassador Passy has also 
proposed relocating meetings of the Economic Forum to Central Asia from 
Vienna, and the HDIM to South Caucasus. Structurally, he has also 
advocated stronger political leadership for the Secretary General and 
the Chairman-in-Office, and deeper inclusion of the Parliamentary 
Assembly of the OSCE.
    We have a strong panel to discuss these issues today.

   Prepared Statement of Hon. Ben Nighthorse Campbell, Co-Chairman, 
            Commission on Security and Cooperation in Europe

    Mr. Chairman, as President Bush has declared, ``By promoting 
liberty abroad, we will build a safer world. By encouraging liberty at 
home, we will build a more hopeful America.'' For nearly three decades, 
the Organization for Security and Cooperation in Europe has provided a 
unique framework for advancing democracy, human rights and the rule of 
law in the expansive OSCE region. Today, comprising 55 countries, the 
OSCE has proven its ability to adapt to new challenges, even while 
remaining faithful to the core principles reflected in the Helsinki 
Final Act and the Charter of Paris. As such, the OSCE is a vital tool 
for advancing U.S. interests in a region critical to our country.
    The mission of the OSCE goes to the heart of the aims laid out in 
the National Security Strategy, although the organization is not 
mentioned by name. As the President stated in the introduction of that 
paper, ``In the twenty-first century, only nations that share a 
commitment to protecting basic human rights and guaranteeing political 
and economic freedom will be able to unleash the potential of their 
people and assure their future prosperity.''
    Notwithstanding the obvious overlap between U.S. interests and the 
OSCE, the organization is underutilized by policymakers here in 
Washington. Operating on the basis of consensus, the OSCE has built up 
an extensive array of commitments ranging from the rights of 
individuals to profess and practice their faith to the conduct of 
democratic elections and the treatment of Roma. Recent events have 
underscored the fact that no country is beyond reproach when it comes 
to human rights and fundamental freedoms, none.
    The OSCE provides a framework within which the United States can 
and should reinforce points of concern with other participating States. 
From addressing ongoing repression in Belarus and the critical 
elections this Fall in Ukraine to concerns over anti-Semitism and 
related violence throughout the OSCE region, the OSCE is doing 
important work that other organizations to which the U.S. belongs 
simply can't. Setting up a zero-sum dynamic between the OSCE and these 
other institutions makes that much sense, zero.
    The comprehensive scope of the OSCE should make it a first thought 
not an afterthought for U.S. policymakers. Recent moves by Moscow, 
Minsk and several other capitals to emasculate the OSCE under the guise 
of so-called reforms, reveal the policymakers there at least recognize 
the success and potential of the organization. Protestations that the 
OSCE is somehow imbalanced--paying too much attention to human rights--
should be seen as the diversionary tactics that they are. Such 
pronouncements are further undermined by the fact that some of the most 
significant advances of late in the OSCE have come in the security 
dimension, most notably areas such as promoting the use of biometric 
travel documents, stemming the proliferation of man portable air 
defense systems (MANPADS), more effective border management and 
security, and enhancing international container and cargo security.
    Setting up a zero-sum dynamic between the security, economic and 
human dimensions of the OSCE makes that much sense, zero. A more 
reasoned approach would recognize that many of the challenges the 
participating States face today are indeed multidimensional in nature.
    Efforts to build upon these initiatives in the security dimension 
should be encouraged. Similarly, creative thinking should also be 
employed to make better use of the economic dimension. I have 
repeatedly cited the nexus between international crime and terrorist 
financing as an area ripe for OSCE engagement, an excellent example of 
the kind of multidimensional challenges faced by participating States 
throughout the OSCE region. The Charter of Paris envisioned the 
possibility of convening meetings of ministers other than foreign 
ministers. The U.S. should propose that an OSCE ministerial be convened 
to address the links between terrorism and international crime.
    The area of conflict prevention in another example where the OSCE 
can and should play an important role. In recent weeks disturbing 
developments in parts of the Republic of Georgia and the Transdniestria 
region of Moldova have threatened to erupt into open conflict. 
Ironically, as Russian-backed separatists in these regions threaten the 
territorial integrity of those countries, the war in Chechnya enters 
its fifth year with death and destruction with the most egregious 
violations of international humanitarian law anywhere in the OSCE 
region. The OSCE has proven that it can play a useful role in such 
conflicts if there is political will to enlist its assistance. Nearly 
five years after the Istanbul OSCE summit, the Russian Federation has 
yet to fully implement the commitments it agreed to with respect to its 
forces in Georgia and Moldova.
    Mr. Chairman, in the National Security Strategy President Bush 
acknowledged that ``Our own history is a long struggle to live up to 
our ideals.'' Given my own background I can attest to the truth in that 
statement. This struggle is far from finished and if we are to lead in 
the promotion of liberty, we must be honest when we have fallen short. 
I am convinced that by so doing we will contribute to a stronger 
America at home and abroad.
    Earlier this year America lost a true champion of liberty and 
freedom, President Ronald Reagan. President Reagan effectively used the 
framework of the OSCE to win the release of hundreds of political 
prisoners and prisoners of conscience, facilitate the reunification of 
thousands of divided families, and overcome repression for millions.
    Mr. Chairman, the utility of the OSCE as an instrument for change 
did not collapse under the rubble of the Berlin Wall, rather it has 
gained access to new avenues to advance democracy and human rights, 
enhance security, and secure a more prosperous future. As our nation 
faces new challenges, the task is to use the OSCE more effectively and 
creatively.
    Thank you, Mr. Chairman.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    Mr. Chairman, let me take this moment to thank you for convening 
this hearing on this subject at such an important and opportune time. 
U.S. involvement in the OSCE has always been important to the 
Organization and to our interests, from the earliest days of the 
Helsinki process to the most recent meetings in Vienna and elsewhere. 
U.S. participation in the OSCE was critical to the successful end of 
the Cold War. Today, however, as the OSCE addresses issues such as 
anti-Semitism, ending the slavery known as human trafficking, fighting 
corruption and assisting the developing democracies of Afghanistan and 
Iraq, our role and the need for U.S. participation has never been more 
important. This hearing should provide a welcome vehicle for the State 
Department to lay out its intended objectives for the United States on 
these and other issues.
    During the Annual Session of the OSCE Parliamentary Assembly held 
in Edinburgh, Scotland, last July, I was re-elected as Chair of the 
Committee on Economic Affairs, Science, Technology and Environment. I 
will continue to work with my colleagues in the Assembly to develop 
strategies that we, as parliamentarians, can pursue both in the 
Assembly and in our own national parliaments to enhance economic 
progress and environmental protection in the OSCE region. Clearly, our 
work should also complement and support that of the OSCE and its 
institutions, and I have consulted with Ambassador Stephan Minikes, the 
U.S. Ambassador to the OSCE in Vienna, in this regard. I have also 
consulted with our Commerce Department Helsinki Commissioner, Assistant 
Secretary Bill Lash, regarding his views on economic challenges in the 
region.
    In Maastricht last December the participating States adopted the 
OSCE Strategy Document for the Economic and Environmental Dimension. As 
you know, this is the first major OSCE economic document since the 
historic 1990 Bonn Document on Economic Cooperation and it calls, inter 
alia, for combating money laundering, criminalizing the financing of 
terrorism, strengthening the rule of law and enhancing transparency and 
the adoption of a long-term strategy to combat corruption. July's 
Edinburgh Declaration of the OSCE Parliamentary Assembly calls on the 
participating States to convene a meeting of Ministers of Justice and 
the Interior to initiate the development of a comprehensive and long-
term anti-corruption strategy as stated in the Maastricht document. 
Such a strategy must also include effective means to combat organized 
crime, money laundering and the financing of terrorists--all 
interconnected in the operation of transnational criminal 
organizations.
    It is my hope that the United States will work for the organization 
of an inaugural meeting of OSCE Ministers of Justice, Interior and 
Finance as well to initiate the development of such a strategy during 
the upcoming Ministerial Meeting in Sofia, Bulgaria. I look forward to 
hearing the views of our distinguished panel of witnesses in this 
regard.

Prepared Statement of Hon. Joseph R. Pitts, Commissioner, Commission on 
                   Security and Cooperation in Europe

    Mr. Chairman, thank you for holding this important and timely 
hearing on U.S. Policy Towards the OSCE. As our nation engages in the 
war against terror, it is vital that we use all avenues at our disposal 
to address the very real threat facing our nation, the nations of 
Europe, Asia, Africa, and Latin America. In addition, it is vital that 
our nation builds and strengthens the relationships we have with 
friends and allies around the world.
    In order to focus on terrorism, and other important concerns facing 
our world today, such as trafficking in persons and religious and 
ethnic discrimination and persecution, the U.S. government needs to be 
deeply involved in the various fora of which we are a party. 
Unfortunately, the US government has not been as involved or present as 
it could be--in the end that damages our relationships with other 
nations. Over the last several decades, the Organization on Security 
and Cooperation in Europe (OSCE) has played an important role in 
providing stability in volatile situations as well as additional 
opportunities for diplomacy and the exploration of creative resolutions 
to pressing issues. I have attended the OSCE Parliamentary Assembly the 
past several years and have been impressed with the level of 
participation from OSCE participating nations--however, the US presence 
tends to be less than it could be--it has only been as strong as it has 
due to the leadership of Chairman Chris Smith. Thank you, Mr. Chairman 
for your very able, and strong leadership at the various OSCE meetings.
    I would like to take this opportunity to urge the Administration to 
engage even more fully in the OSCE and with OSCE participating states 
and partners. Yesterday's Washington Post article and other media 
outlets' reports reflect President Putin's new plans to deprive the 
Russian people of their freedoms. The U.S. and other nations need to 
engage with the Russians NOW. As they tragically did in Russia last 
week, extremists are attempting to disrupt and dominate politics 
throughout the world. While our response must be firm, it must also be 
just. We cannot afford to compromise human rights for the sake of 
security, or we play into the hands of the terrorist. OSCE nations must 
not let the extremists and terrorists win.
    Unfortunately, as governments crack down on terrorism, there are 
many peaceful religious believers and citizens who are arrested by 
officials. Now, more than ever, we must work to ensure that fundamental 
human rights are protected. Now is the time to help national lawyers, 
journalists, religious leaders, and others who seek to promote 
democracy and freedom in their nations. We must support courageous 
leaders who stand for freedom in the midst of fierce opposition from 
secret security forces and official government pressure. Now is the 
time for us to strengthen and build relationships with other nations, 
to work together to bring safety, security and peace to our world.
    Thank you, Mr. Chairman. I look forward to hearing from our 
distinguished witnesses.

           Prepared Statement of Secretary A. Elizabeth Jones

    Senators, Congressmen: I am pleased to be here to discuss the 
Organization for Security and Cooperation in Europe (OSCE) and its role 
in furthering U.S. foreign policy objectives. Since we met last 
September, the OSCE has made a major contribution toward promoting 
democracy, peace and stability across Europe and Eurasia. The OSCE's 
successes would not be possible without support from Members of 
Congress. I want to thank you for your work through the Helsinki 
Commission and the OSCE Parliamentary Assembly. They have been key to 
building a consensus for our shared agenda among the legislatures and 
publics of the OSCE's 55 participating states. Allow me to congratulate 
Congressman Hastings on his election as President of the OSCE 
Parliamentary Assembly. We greatly value his continued activism on OSCE 
issues and the involvement of the parliamentary assembly in election 
monitoring and other important work.
    I share your enthusiasm for the OSCE and its work. The OSCE's 
support for Georgia's democratic transition over the past year 
demonstrates how the OSCE and its field missions contribute to creating 
a democratic and stable Europe, a key U.S. foreign policy objective. 
Strong U.S. leadership within the organization has advanced fundamental 
objectives set forth in the President's National Security Strategy of 
2002: to promote security through the development of democratic and 
market-oriented societies, respect for human rights, and tolerance of 
religious, national, ethnic and racial diversity.
    The OSCE is crafting an ambitious agenda for the future, an agenda 
the United States supports. With U.S. leadership, the OSCE is doing 
more to promote human rights and democracy, to expand efforts to combat 
anti-Semitism and intolerance, and to combat trafficking in persons. 
This month, the OSCE will send its first election assistance team 
outside Europe and Eurasia to Afghanistan for that country's historic 
presidential elections.
    Today, I would like to address in detail the OSCE's value to the 
United States, the OSCE's recent accomplishments and plans for the 
future, and calls to refocus and restructure the OSCE.
Value of the OSCE for the United States
    U.S. participation in the OSCE advances U.S. interests in promoting 
democracy, strengthening respect for human rights and fundamental 
freedoms, and advancing arms control, economic prosperity and 
sustainable environmental policies. The OSCE also has a role to play in 
helping to win the global war against terrorism, and it is a vehicle 
for the kind of ``effective multilateralism'' of which President Bush 
spoke last November in London. Promoting these interests collectively 
through the OSCE allows the United States to share both costs and 
political responsibility with other states and, at the same time, to 
coordinate actions to avoid duplication and maximize success.
    The United States continues to make effective use of the OSCE's 
flexible and comprehensive approach to security, which recognizes human 
rights, as well as economic and environmental issues as integral 
factors in fostering security and stability. Common principles agreed 
by consensus give the United States and other OSCE participating states 
shared values and commitments on which to act. The OSCE can bring the 
weight of 55 nations acting together to bear on problems that no one 
nation can solve alone. Over the past year, the U.S. has again led the 
way in proposing practical new issues for the OSCE agenda.
    The OSCE has made a significant contribution in the post-Communist 
era toward achieving America's goal of a free, whole, and peaceful 
Europe, though much still needs to be done. The OSCE is adapting to new 
challenges and providing models for addressing tough issues such as 
intolerance, border management and destruction of Small Arms and Light 
Weapons, models from which the United Nations and other international 
organizations draw. At the same time, OSCE resources are modest. Any 
new initiatives must represent the top priorities of the United States 
and other participating states.
Assessment of Recent and Future OSCE Activities
    The Chairman-in-Office plays a crucial role to the OSCE's success, 
providing political direction while maintaining the organization's 
flexibility. In 2003, The Netherlands set a commendable standard for 
the conduct of the OSCE Chairmanship. This year, the United States is 
working closely with the Bulgarian Chairman-in-Office. The Bulgarian 
Chair has worked to implement decisions taken at the Maastricht 
Ministerial and has been receptive to new ideas--many proposed by the 
United States. We are looking forward to seeing these initiatives come 
to fruition during the Sofia Ministerial in December and to working 
with the Slovenian Chairmanship in 2005.
    Among the OSCE's most important assets are its 17 field missions on 
the front lines of democracy and human rights from the Balkans to 
Central Asia. The U.S. strongly supports OSCE field work and believes 
that the day-to-day efforts of OSCE missions are critical to promoting 
OSCE commitments, especially democratic values and international human 
right standards. Field missions work with host governments, non-
governmental organizations and the public to promote pluralism, 
prosperity and peace. Their work is varied and complements the efforts 
of U.S. and like-minded European embassies. In some countries, OSCE 
field missions work with authorities to help them build the capacity to 
govern more effectively (by training new generations of officials), 
efficiently (by helping plan and implement administrative reforms) and 
democratically (by helping to develop legislation, conduct elections 
and encouraging civic participation in the political process). In other 
countries, OSCE field missions are the linchpins for international 
efforts at conflict prevention and post-conflict rehabilitation.
Fight Against Intolerance
    OSCE's pioneering work in fighting racism, anti-Semitism and other 
forms of intolerance has become the standard by which other 
organizations' efforts--including those of the United Nations--are 
measured. The OSCE's work on confronting the roots of intolerance, 
strengthening respect for freedom of religion and speech, and providing 
an environment free from fear of persecution or prejudice, are top 
priorities for the U.S.
    The Anti-Semitism Conference in Berlin in April was a spectacular 
success. The political will harnessed by the Berlin Conference should 
energize trans-Atlantic cooperation in tackling anti-Semitism and lead 
to fruitful follow-up for years to come. We are indebted to the German 
Government for hosting the Conference and to the Bulgarian Chairmanship 
for its strong support. We are equally thankful to those Americans--the 
NGO community and Chairman Chris Smith, Congressman Ben Cardin and 
other Members of Congress--who, along with Secretary Powell and the 
U.S. delegation led by Ed Koch, took part in the proceedings. The 
Berlin Declaration, which stated that international developments or 
political issues, including those in Israel or elsewhere in the Middle 
East, never justify anti-Semitism, has become a blueprint for future 
OSCE efforts to combat anti-Semitism. We look forward to the 
Declaration and the action plan outlined in the April 22 Permanent 
Council Decision on Combating Anti-Semitism being endorsed by Foreign 
Ministers in Sofia.
    The Conference on Racism, Xenophobia and Discrimination, which has 
just concluded in Brussels, was equally successful in galvanizing 
political will within the 55 OSCE participating states to step up 
efforts to strengthen religious freedom and to combat intolerance. A 
top notch U.S. delegation, led by Secretary of Housing and Urban 
Development Alphonso Jackson, demonstrated the importance that the 
United States attaches to this issue. The OSCE demonstrated its 
commitment to further action by adopting a series of measures that, we 
hope, will be endorsed at the Sofia Ministerial.
    The Paris Meeting on the Relationship between Hate Speech on the 
Internet and Hate Crime in June offered experts a chance to share views 
on hate speech. The U.S. delegation, under the leadership of two 
Assistant Attorneys General, advocated the need to continue to protect 
freedom of expression and information and, simultaneously, to confront 
and denounce the ideas of bigots in the marketplace of free ideas. 
While some delegations differed on government regulation, there were 
also broad areas of consensus about strengthening education on 
combating bias-motivated speech and increasing training for 
investigators and police to address bias-motivated crimes on the 
Internet.
Next Steps in Combating Intolerance
    The Berlin and Brussels conferences and the Paris meeting have laid 
the foundation for an ambitious, long-term OSCE effort for dealing with 
the roots of intolerance. At the two conferences, fifty-five nations 
committed to collect hate crime statistics, share that information with 
the OSCE's Office for Democratic Institutions and Human Rights (ODIHR), 
strengthen education to combat intolerance and, consider increasing 
training for law enforcement and judicial officials on hate crimes 
legislation. ODIHR has been tasked to track incidents of intolerance 
and anti-Semitism, report on its findings, and to disseminate best 
practices for combating acts of intolerance. At the Paris meeting, the 
U.S. put forward a ``Ten-Point Action Plan'' that could serve as a 
basis for combating hate speech on the Internet while protecting 
freedom of expression and information. We strongly support each of 
these initiatives and will work to see that they are endorsed at the 
Sofia Ministerial.
    The success of these tolerance initiatives, of course, will depend 
on their full implementation. There is much to be done: many OSCE 
participating states do not have hate crime legislation or systems for 
tracking hate crime, and ODIHR has had to start almost from scratch in 
developing its new tolerance program. The U.S. believes that ODIHR is 
the right institution within the OSCE for promoting tolerance. To 
ensure that anti-Semitism receives the attention that it merits, we 
support naming a Special Representative for Anti-Semitism provided this 
position is resource neutral. This would be a senior person with a 
mandate to travel and make recommendations. Our view is that such a 
Special Representative should be modeled on the OSCE's Special 
Representative for Central Asia with neither dedicated staff nor 
salary.
Anti-Trafficking Efforts
    As President Bush said before the United Nations General Assembly 
last September, ``There is a special evil in the abuse and exploitation 
of the most innocent, the most vulnerable of our fellow human beings.. 
And governments that tolerate this trade are tolerating a form of 
slavery.'' I am pleased to report that, in response to the sustained 
efforts of the Administration and the Helsinki Commission, the OSCE has 
expanded its efforts in the fight against trafficking in human beings. 
At last December's Maastricht Ministerial, ministers approved an Action 
Plan on Trafficking and the creation of a Special Representative of the 
Chairman-in-Office on Trafficking.
    The criminal practice of trafficking is transnational, requiring 
engagement with foreign governments and NGOs. The responsibility to 
combat human trafficking lies first and foremost with individual 
governments. But, no nation can fight this problem alone. The OSCE's 
pan-European membership and broad range of tools can help build 
practical transnational cooperation in the fight against trafficking.
    The Maastricht Action Plan on combating trafficking in human beings 
envisions police training, legislative advice, and other assistance, 
which are already being provided by ODIHR and by the OSCE's 17 field 
missions. As the new Special Representative for Trafficking and her 
support unit advance their efforts, we expect they will provide the 
framework and coordination to expand our combined efforts.
    The OSCE has taken the lead in the international community in 
establishing a strong code of conduct for its mission members to ensure 
that they do not contribute to trafficking. We are pleased that NATO 
and other international organizations are looking at OSCE policies as a 
model to address this as well.
    The OSCE has also crafted an economic component to its anti-
trafficking action plan. It is directed toward at-risk individuals in 
source countries and at businesses that might be abused by traffickers 
(hotels and tour operators exploiting the sex trade). The aim is to 
reduce demand in destination countries by raising awareness about 
trafficked laborers and sex industry workers.
Election Observations
    This electoral year is a challenging one, even for an organization 
with as much experience and capability as ODIHR. We commend ODIHR for 
its excellent and impartial conduct of election observation missions in 
Georgia, the Russian Federation, Macedonia, and Serbia and Montenegro. 
I want to single out ODIHR's Herculean efforts in mobilizing resources 
and personnel on short notice for two seminal national elections in 
Georgia. ODIHR assisted with programs to organize presidential and 
parliamentary elections and to provide robust election observation 
missions that documented notable progress over previous elections.
    ODIHR's election observation methodology, based on sound, 
standardized criteria applied in an objective fashion, enjoys world 
respect. Upcoming elections in Ukraine, Kazakhstan and Belarus will be 
key tests of those countries' commitment to democracy. The degree to 
which these elections are judged to be free and fair will be a critical 
element for the international community. The ODIHR monitoring missions 
will play an important role in determining their fairness and we call 
on all countries in the region to fully support all of ODIHR's election 
observation and other democracy promoting activities.
    Afghanistan is an OSCE Partner for Cooperation and has scheduled 
its historic first presidential elections for October. The U.S. and 
other OSCE participating states, three of which share a border with 
Afghanistan, have a direct interest in seeing democracy, peace and 
stability take root there. We have strongly supported an OSCE 
observation role in the upcoming Afghan elections to respond to 
requests from the Afghan authorities and the UN. The U.S. will 
contribute to the election support team efforts, and hope others will 
match our financial support for ODIHR election activities.
    To set an example of transparency, we have again invited ODIHR to 
send an election observation mission to the U.S. for the November 
elections. U.S. invitations to ODIHR to observe our elections are part 
of a longstanding policy. In 1990, the CSCE, the OSCE's predecessor, 
held a landmark conference to promote human rights. The U.S. and the 
participating states agreed at that conference to the Copenhagen 
Document, which included a commitment to invite observers from other 
participating states to observe national elections. The U.S. was a 
major advocate of that commitment, since the Berlin Wall had just 
fallen and many nations were about to hold their first real elections 
in decades. OSCE participating states reaffirmed this commitment at the 
OSCE's 1999 Istanbul Summit.
    In accordance with this commitment, the U.S. has set an example by 
inviting ODIHR to observe several past U.S. elections. We believe that 
election observers from emerging democracies, like the former Communist 
states of Eastern Europe, who participate in observation missions in 
the U.S. and other longstanding democracies become more powerful 
advocates of better election practices in their own countries. ODIHR 
has monitored two U.S. elections and other established democracies, 
including the United Kingdom and France, have also hosted ODIHR 
election missions. We expect each member country to adhere to these 
principles.
Conflict Prevention/Resolution and Turkmenistan and Belarus
    The OSCE also plays a critical role in the so-called frozen 
conflicts, as well as in a few states of concern.
Moldova and Transnistria
    The OSCE, and in particular the OSCE Mission in Moldova, are 
working to find long-term solutions to the situation in the breakaway 
region of Transnistria. The U.S. strongly supports the work of the OSCE 
in Moldova, which forms part of our own strategy--as well as that of 
the EU--for finding a peaceful resolution which respects the 
sovereignty and territorial integrity of Moldova. The situation in 
Transnistria has deteriorated significantly. The Tiraspol authorities 
have prolonged their forcible closure and harassment of Latin-script-
language schools. They denied the OSCE Mission freedom of movement and 
refused to allow the OSCE and UNICEF to deliver supplies to an 
orphanage.
    Through the OSCE, we have strongly condemned these actions, and 
reiterated our demand that the Transnistrians reopen the schools 
immediately and restore the normal movement of people and goods. The 
U.S. and the EU have added more Transnistrian officials directly 
involved with the Latin-script-language school crisis to our visa bans. 
Russia's engagement is also critical. We have urged the Russian 
Government to make more of an effort to use its influence with the 
Transnistrian leadership.
    The United States has urged all sides to work transparently with 
the OSCE to make concrete progress toward a political settlement. We 
support proposals for international monitoring of the Transnistrian 
segment of the Moldova-Ukraine border and for an international 
conference on the Transnistrian conflict. We have also urged the 
Russian Federation to resume, in cooperation with the OSCE, its 
withdrawal of arms and ammunition from the region. None of these steps, 
and certainly no bilateral efforts by individual nations, can 
substitute for a genuine commitment by all the mediators and the 
parties to work within the framework of the five-sided talks 
facilitated by the OSCE. Only through the close cooperation of the 
international community, including the OSCE, will we reach such a 
resolution. Transparency in this process is in everyone's interests.
Georgia, Abkhazia and South Ossetia
    The OSCE Mission to Georgia is another example of how the OSCE is 
contributing to the President's vision for a Europe whole, free and at 
peace. We welcome the constructive roles played by the OSCE and its 
field mission there. The United States supports a peaceful resolution 
of the South Ossetian conflict that respects the territorial integrity 
of Georgia. Tensions in South Ossetia escalated in August, but ended 
with a ceasefire and withdrawal of excess Georgian troops. We have 
called on all sides to respect all existing agreements and to refrain 
from carrying out any further military activities in or near the zone 
of conflict. Recent tensions underscore the need for the sides to move 
forward with OSCE participation toward demilitarization and a political 
settlement.
    Progress toward a political settlement of the Abkhaz conflict is 
stalled, with the Abkhaz side withdrawing from the negotiating process 
in July. As we urge the parties to resume progress toward a settlement, 
we need to use the OSCE mission in Georgia to further assist the 
government and the people to concentrate on democratic institution 
building and economic reform. We believe that the OSCE Border 
Monitoring Operation should continue beyond the expiration of its 
mandate in December.
Adapted CFE and Fulfillment of Istanbul Commitments
    Regarding the Adapted Treaty on Conventional Forces in Europe, we 
welcomed the Russian Duma's ratification as an indication that Russia 
shares with the United States and NATO Allies a commitment to CFE. 
However, the most important step Russia could take to move the Adapted 
CFE Treaty closer to entry into force is fulfillment of its Istanbul 
commitments on withdrawal of forces from Georgia and Moldova. Almost 
five years after the OSCE's Istanbul Summit in 1999, Moscow still has 
not met those commitments. Russia should complete withdrawal of its 
military forces from Moldova as soon as possible. Russia needs to reach 
agreement with the Georgian Government on the withdrawal timetable for 
its remaining forces on Georgian territory. Only when Russia fulfills 
its Istanbul commitments will the U.S. and its NATO Allies will be 
prepared to move forward with ratification of the Adapted CFE Treaty.
Kosovo
    The March events in Kosovo remind us that the work of the OSCE's 
largest field mission remains critical to developing the foundation for 
the democratic, multi-cultural civil society in Kosovo that the United 
States wants to see. The OSCE is helping Kosovo implement the UN 
Security Council-endorsed Standards for Kosovo, which are strongly 
supported by the U.S., and prepare for the mid-2005 Review Date by 
helping to build democratic institutions and promote human rights. The 
U.S. has made the conduct of free and fair Kosovo elections this Fall a 
priority, sending some of our best people to staff OSCE election work 
there. Participation by all the people of Kosovo--ethnic Albanians, 
Serbs and all other minorities--will be vital to Kosovo's future. We 
also continue to support the excellent work of the Kosovo Police 
Service School. In light of the ongoing security concerns in Kosovo, we 
envision a further role for the OSCE in police training.
Turkmenistan
    In Turkmenistan, the expulsion of OSCE Head of Mission Ambassador 
Badescu was a grave disappointment. Ambassador Badescu and her staff 
have labored under difficult circumstances to try to keep a line to the 
outside world open for the people of that country and to engage 
constructively with Turkmen authorities. The OSCE is the only 
organization in which Turkmenistan is a full member that is present on 
the ground in Ashgabat offering the government and people opportunities 
for concrete cooperation to build a democratic future.
Belarus
    In Belarus, we are gravely concerned by the government's 
intensified campaign that restricts citizens from exercising basic 
human rights freely, such as the right to assemble, speak and study 
independently of government control. We welcomed the invitation from 
Belarusian authorities to observe parliamentary elections this fall, 
but have made it clear that ODIHR must be given full access in order to 
render an objective evaluation of any election. Furthermore, given the 
government of Belarus' persistent violations of human rights and 
democracy, President Lukashenko's recent decree calling for a 
referendum to eliminate institutional term limits for the presidency 
and allow him to run again for president in 2006 raises grave doubts 
whether the results will freely and fairly reflect the views of the 
Belarusian people. We reiterate our call upon the Government of Belarus 
to ensure that the Belarusian people are able to debate, vote and have 
their votes counted according to international democratic standards on 
October 17 and thereafter by taking immediate steps to uphold Belarus' 
international democracy and human rights commitments. We will view any 
election and referendum that does not meet international democratic 
standards as another attempt to manipulate democratic procedures and 
the Belarusian Constitution in contravention of democratic principles.
    The U.S. strongly supports the OSCE Office in Minsk in its attempts 
to help Belarusian authorities meet broader OSCE commitments and non-
governmental groups to work for the benefit of the country. While the 
attitude of authorities toward the OSCE has been disappointing, the 
OSCE Mission is reaching out to the next generation, helping prepare it 
to play a responsible role in the future.
OSCE Adaptation to New Economic and Security Challenges
    At last December's Maastricht Ministerial, the OSCE adopted a 
strategy to address threats to security and stability in the 21st 
century and an economic strategy to define concrete action in the 
``Post-Post Cold War era.'' These strategies are examples of the OSCE 
responding to new economic and political-military security challenges. 
At the same time, the OSCE has promoted practical cooperation to assist 
participating states in combating terrorism, improving police and 
border management, controlling the availability of small arms and light 
weapons, and coping with the task of securing or destroying excess 
stockpiles of weapons and ammunition, as well as MANPADs.
Energizing the Economic Dimension
    The Economic Strategy Document adopted in Maastricht focuses on 
steps to improve good governance and transparency to maximize the 
benefits of economic integration and globalization. This should advance 
our overall strategy for integration of all European and Eurasian 
states into the global economy. With the Strategy Document as a tool, 
OSCE field missions and the Secretariat are developing activities and 
are working with participating states to continue with anti-money 
laundering and anti-terrorist financing work.
    On the environment, the OSCE has worked with partner organizations 
to map environmental hot spots and to work regionally to address 
environmental problems that could cause friction between states. One of 
the most successful programs took place in Georgia, Armenia and 
Azerbaijan where, despite political tensions, scientists and others 
worked productively together. This is an excellent example of the 
OSCE's ability to bring states together to work on issues of mutual 
concern, where the exercise itself serves as a confidence building 
measure.
Counter-terrorism
    The United States has worked to have OSCE fill niches in the 
international community's response to terrorism. The OSCE Action 
against Terrorism Unit has worked to bring all 55 participating states 
towards compliance with UN counter-terrorism commitments. There has 
been major progress by all participating states to ratify and accede to 
the 12 UN terrorism-related Conventions, as well as on a U.S. 
initiative to bring ``the 55'' into compliance with recommendations of 
the OECD Financial Action Task Force to combat money-laundering and 
terrorist financing.
    The Maastricht Decision on Travel Document Security launched a 
major OSCE effort that helps U.S. and international efforts to close 
doors to terrorists. The OSCE's seminar on Travel Document Security was 
a success in increasing awareness on assistance available to help 
participating states meet the deadlines for implementing stricter 
issuance procedures for travel documents and for converting to machine-
readable passports.
    We were pleased with the Second Annual Security Review Conference. 
This year's conference both reviewed the implementation of security 
commitments and considered new ideas. Department of Homeland Security 
Deputy Secretary Admiral Loy's address to the session laid the 
groundwork for a series of measures that participating states will, we 
hope, endorse in the coming months. Admiral Loy urged the OSCE to join 
the U.S. in making a commitment to share information on lost and stolen 
passports through Interpol's database, a natural complement to the OSCE 
Travel Document Security decision adopted in Maastricht. He also 
proposed that OSCE members take steps to tighten security on container 
shipments.
Border Management and Security
    The work that the OSCE has launched to follow-up to last year's 
Ohrid Balkan Border Conference, including training for border officials 
from Balkan countries, is an impressive start to facilitate secure and 
free flows of people and goods--a key objective of the U.S. Homeland 
Security Strategy. The United States has strongly encouraged the OSCE 
to increase its cooperation with other international organizations 
where it can best provide value-added training and expertise--a central 
part of the development of an OSCE border management and security 
concept. In order to promote coordination, the U.S. took the lead in 
proposing and defining the parameters for the UN Office on Drugs and 
Crime-OSCE Border Conference, which took place in Vienna September 7-8. 
The OSCE does not coordinate assistance, but it can bring together 
donors to avoid duplication and help to build political support to 
address border issues among participating states.
    Under U.S. leadership, the Forum for Security Cooperation (FSC) has 
played a positive role as an instrument of the Political-Military 
Dimension of the OSCE. The FSC made a significant step forward in 
combating terrorism when it adopted stricter export controls on Man 
Portable Air Defense Systems (MANPADS) in May. There is much more to be 
gained as participating states share their experience and best 
practices on effective implementation of stricter MANPADS controls. The 
FSC also established principles governing End-Use Certification of 
small arms and light weapons. Now that work is completed, the FSC is 
turning to another important initiative--to establishing principles to 
govern the brokering of small arms and light weapons, an idea that came 
out of an Economic Dimension seminar on trafficking in arms, 
demonstrating the value of OSCE's cross-dimensional work. The OSCE's 
work in this area includes on-the-ground assistance to Belarus under 
the provisions of the OSCE Document on Small Arms and Light Weapons.
    The Cold War left a legacy of excess conventional munitions and 
weapons, particularly in the countries of the former Soviet Union. The 
U.S. supports OSCE efforts to destroy these excess stockpiles. The OSCE 
has already received requests from three participating states for 
assistance in dealing with excess munitions: Belarus, Ukraine and 
Russia. The development and execution of these projects represent a 
major task ahead for the OSCE.
Policing
    Police training is another area of increased OSCE activity, 
particularly in Central Asia. The OSCE's objective, which the U.S. 
supports, is to help individual states put in place training and 
oversight programs that protect citizens while safeguarding their 
rights and freedoms. Building on the success of training in the 
Balkans, the OSCE's Special Police Matters Unit has stepped up its 
efforts with assessment missions to Central Asia and a proposal on 
conducting OSCE police training in the Georgian conflict areas of 
Abkhazia and South Ossetia. The Special Police Matters Unit has been 
active in Kyrgyzstan, where the U.S. has supported the establishment of 
a police academy. The U.S. supports the work of the Special Police 
Matters Unit, and we look forward to greater transparency and tighter 
financial oversight of its fieldwork.
Outreach
    The U.S. supports demand-driven, practical OSCE outreach activities 
to deepen security cooperation with its partners, whom we encourage to 
commit voluntarily to implementing OSCE principles and commitments. A 
first step would be to add substance to the relationship with the OSCE 
Mediterranean Partners for Cooperation (Algeria, Egypt, Israel, Jordan, 
Morocco and Tunisia), perhaps through ad hoc seminars on human rights 
and democracy. The OSCE's Action Against Terrorism Unit is also working 
to organize briefings for the Mediterranean Partners, to encourage them 
to come into compliance voluntarily with OSCE counter-terrorism 
commitments. The U.S. does not favor creation of an OSCE-like structure 
in the Middle East. We do support indigenous reform efforts in the 
broader Middle East through the G-8 and bilaterally, in concert with 
the EU.
Sofia Ministerial
    The Sofia Ministerial will take place in December, and the U.S. is 
working for a practical agenda focused on our top policy priorities. We 
hope to reach agreement within the OSCE on further steps to combat 
anti-Semitism, racism, xenophobia and discrimination, agreement on the 
role the OSCE can play on gender issues, and additional measures in the 
fight against terrorism. At Sofia, the U.S. will again strongly urge 
Russia to fulfill its Istanbul commitments. We expect to adopt an OSCE 
border concept, and to endorse OSCE work on shipping container 
security, small arms and light weapons, MANPADS, and the destruction of 
excess stockpiles of ammunition and weapons.
    There is one major problem that we hope to resolve by the time of 
the Sofia ministerial, namely how the OSCE funds itself. A debate has 
begun about revision of the OSCE's two scales of assessment. Russia, 
supported by some countries, is seeking a dramatic reduction in its 
contributions to the OSCE. In our view, proposals to reduce 
contributions radically cannot be the basis for the kind of serious 
discussions that are needed among OSCE participating states. The U.S. 
stands behind the criteria for adjustment of the scales adopted in 2001 
and 2002--ceilings and floors on contributions based on capacity to 
pay. All participating states benefit from the OSCE and all use the 
organization to advance their national interests. The OSCE achieves 
results at a comparatively modest cost. We hope that other 
participating states will adopt responsible approaches and negotiate 
constructively on this issue in order to avert a budget crisis. We note 
that the OSCE budget process has improved markedly over the past 
several years. Systems have been put in place to track budget 
allocations and expenditures more efficiently, providing more 
transparency and accountability.
    The Sofia Ministerial will also consider the appointment of a new 
Secretary General to succeed Jan Kubis, who has served ably since 1999. 
The Secretary General plays a critical role in managing the OSCE, and 
the U.S. is committed to ensuring that his replacement is the best 
possible candidate. We welcome your suggestions for potential 
candidates.
Strengthening OSCE to Deal with Challenges Ahead
    Bulgarian Chairman-in-Office Passy and others have suggested 
initiatives to strengthen the OSCE to meet the challenges ahead. Some 
of these initiatives, such as Foreign Minister Passy's idea to move the 
annual human rights and economic dimension meetings, are good ideas 
that the United States supports.
    Proposals that the OSCE Secretary General should be changed to give 
the position more of a political role, however, need careful 
consideration. The Secretary General manages OSCE operations. Political 
leadership is vested in the rotating Chairman-in-Office, an arrangement 
that the U.S. supports. We are concerned that changing the balance 
between the Secretary General and the Chairman-in-Office could change 
the fundamental nature of the organization. It is essential to preserve 
the strengths that have set the OSCE apart from other international 
organizations. Specifically, the OSCE's flexibility, which the 
Chairman-in-Office system has done much to enhance by minimizing 
central control and streamlining bureaucracy, has allowed the 
organization to respond to problems creatively and effectively.
    Russia and the other Commonwealth of Independent States also have 
called for changes at the OSCE, most notably in a July statement that 
was highly critical of the OSCE's field operations and ODIHR. We note 
that the U.S. has supported efforts by Russia and others to strengthen 
work in the OSCE's economic/environmental and political-security 
dimensions. For example, the U.S. has worked closely with Russia on 
crafting the OSCE Strategy to Address Security to Stability in the 21st 
Century, adopted by ministers at the Maastricht Ministerial. The 
Economic Strategy adopted at the Maastricht was also a Russian 
initiative supported by the U.S.
    The U.S., however, remains steadfast that the OSCE's core mission 
is helping to foster democratic change, and that two of the OSCE's 
greatest strengths are its field missions and ODIHR. By helping 
strengthen democratic institutions and civil societies, OSCE field 
presences help to defeat the underlying causes of instability.
    The July CIS statement's claim is factually inaccurate that 
political dialogue on democracy and human rights are internal affairs 
of the concerned states. The CSCE Moscow Document of 1991 states: ``The 
participating states emphasize that issues relating to human rights, 
fundamental freedoms, democracy and the rule of law are of 
international concern, as respect for these rights and freedoms 
constitutes one of the foundations of the international order. They 
categorically and irrevocably declare that the commitments undertaken 
in the field of the human dimension of the CSCE are matters of direct 
and legitimate concern to all participating states and do not belong 
exclusively to the internal affairs of the State concerned.''
Conclusions
    The bottom line remains that the OSCE has been a successful vehicle 
for managing security challenges over the past three decades. Its 
record of achievements over the past year is impressive, from Georgia 
election monitoring to the Berlin anti-Semitism conference; from 
tougher travel document security commitments to a new Special 
Representative on Trafficking. The year ahead promises to be just as 
challenging and diverse, from Afghanistan election monitoring to 
tougher measures to combat intolerance.
    The value of the OSCE to achieving U.S. foreign policy objectives 
is clear. In promoting democratic development and respect for human 
rights, the OSCE is second to none. On economic development, the OSCE 
promotes good governance and helps countries put systems in place to 
fight corruption. On political-military issues such as the fight 
against terrorism, border security, small arms and light weapons, and 
excess stockpiles, the OSCE fills crucial niche gaps. It has proven to 
be an effective diplomatic tool that complements our bilateral 
diplomatic and assistance efforts throughout Europe and Eurasia.
    The OSCE does face new challenges ahead, both in its missions and 
in its ability to adapt to changing circumstances. The U.S. will 
continue to work with its partners within the OSCE to advance the 
shared objectives of the trans-Atlantic community. Thank you.

          Prepared Statement of Secretary Stephen G. Rademaker

    Mister Chairman, distinguished members of the Helsinki Commission, 
I would like to build on the information just presented by my 
colleague, Assistant Secretary Beth Jones, by addressing, in a bit more 
detail, some of the security issues facing the OSCE today. I will focus 
on some of the work being done in the OSCE's Forum for Security 
Cooperation, or FSC, highlighting the role played by the U.S. 
Chairmanship of the FSC in late 2003.
    Let me mention a few of the security issues we are looking at. Arms 
control, disarmament and confidence- and security-building measures, or 
CSBMs; security dialog; Code of Conduct; non-proliferation; terrorism; 
small arms and light weapons; ammunition stockpiles; MANPADS. Some of 
these are very familiar to Commission members, as they were addressed 
by the Helsinki Final Act. Others reflect new concerns in the 21st 
century. But all are part of the FSC agenda.
    Since the FSC was established by the 1992 Helsinki Summit to 
strengthen security and stability within the OSCE community of states 
it has done just that. Its work program and the fundamental tasks 
outlined therein reflect the FSC's commitment to transparency and 
stability in the traditional political-military sphere of security, 
where conventional armed forces are involved or affected. The challenge 
for the political-military dimension in recent years has been to 
broaden the scope of work to be able to address the range of threats 
and security issues facing us in the 21st century while, at the same 
time, complementing the work of the OSCE's Permanent Council in these 
areas. Let me describe how the FSC is facing both of these aspects 
under its responsibility.
    One enduring legacy of the political-military dimension of the OSCE 
is the range of CSBMs in place in Europe and Eurasia today. The first 
such measures date back to Basket One of the 1975 Helsinki Final Act, 
and the most recent are set forth in the Vienna Document 1999. 
Implementation of arms control agreements and CSBMs is not a single 
event frozen in time; it requires constant nurturing and attention. 
OSCE is a forum designed to provide that enduring attention. 
Delegations are encouraged to raise implementation issues during FSC 
meetings, which take place weekly. In addition, the FSC holds annually 
in March an Implementation Assessment Meeting to review the record of 
implementation of the Vienna Document and other OSCE security 
commitments.
    The record of implementation and discussions during these annual 
meetings shows that the Vienna Document 1999 is functioning well and is 
effectively fulfilling its intended purpose of providing a useful 
mechanism to enhance transparency and build confidence among the 
participating states. You are aware that the range of measures in the 
Vienna Document allows OSCE states to share information about the size 
of their military forces and defense budgets, and also provides an 
opportunity to show how some of those forces operate. The underlying 
premise of these CSBMs, of course, is that transparency about another 
state's military forces and activities will allow states to avoid 
possible misinterpretations regarding those forces. We see the success 
of these measures in their continued, and increased, implementation 
each year. More states are now conducting Vienna Document inspections 
and evaluation visits--and not just those countries we think of as 
traditional arms control states. Just last week, for instance, Albania 
conducted an inspection in Sweden. The continued importance of 
maintaining a level of transparency about military forces is reflected 
in the institution of a number of regional and bilateral arrangements 
within the OSCE region that complement the Vienna Document by providing 
for more extensive exchanges of information and additional verification 
opportunities.
    The Vienna Document 1999 and other OSCE documents and commitments 
deal with the whole OSCE area and all OSCE states. However, some 
documents of key importance for military security in Europe were 
adopted by--and apply only to--some of the OSCE participating States. 
This is the case with the Treaty on Conventional Armed Forces in 
Europe, or CFE, and the Treaty on Open Skies. While implementation of 
these two Treaties is discussed in fora outside of the OSCE, OSCE 
states have long recognized that vigorous implementation of this type 
of security agreement can have a positive impact on overall security 
and stability in Europe, not just the security of those states that are 
parties to these agreements. Accordingly, OSCE member States regularly 
address the importance of these two treaties in Ministerial and Summit 
declarations.
    Let me focus briefly on CFE. You will recall that the CFE Treaty, 
signed in November 1990, established parity in major conventional 
forces and armaments between East and West--that is, between NATO and 
the Warsaw Pact--from the Atlantic Ocean to the Ural Mountains. In 
November 1999, the 30 CFE States Parties signed the Agreement on 
Adaptation of the Treaty on Conventional Armed Forces in Europe at the 
OSCE Istanbul Summit. A/CFE, as we refer to the Adaptation Agreement, 
would supercede the CFE Treaty to take account of the evolving European 
geo-strategic environment and the end of the Cold War. Following entry 
into force of the Agreement on Adaptation, other OSCE participating 
States with territory in the geographic area between the Atlantic Ocean 
and the Ural Mountains will be able to apply for accession to the 
Treaty.
    At the time A/CFE was signed, Russia made certain commitments to 
withdraw military forces and equipment from Georgia and Moldova. 
Specifically, Russia promised at Istanbul to withdraw its CFE treaty-
limited equipment, or TLE, from Moldova by the end of 2001 and its 
forces from Moldova by the end of 2002. With regard to Georgia, Russia 
promised to withdraw or destroy CFE TLE in Georgia in excess of agreed 
levels by the end of 2000, to withdraw from and disband two military 
bases (Vaziani and Gudauta) by July 2001, and to negotiate with Georgia 
the duration and modalities of other Russian military bases (Batumi and 
Akhalkalaki) and facilities.
    The United States and our NATO Allies, as well as a number of other 
Treaty partners, have agreed that we will not move to ratify A/CFE 
until Russia fulfills its Istanbul Summit commitments regarding 
withdrawal of its forces from Georgia and Moldova. Recognizing the 
magnitude of this undertaking, the OSCE agreed to establishment of a 
voluntary fund in order to help with the costs associated with the 
Russian military withdrawal. As I'm sure you are aware, the Unite 
States has contributed significantly to this fund.
    Unfortunately, after nearly five years and despite this assistance 
from the international community, Russia has not yet met its Istanbul 
commitments. Russia needs to complete withdrawal of its military forces 
from Moldova as soon as possible and to reach agreement with the 
Georgian Government on the withdrawal of its remaining forces on 
Georgian territory. Russia remains eager to bring the A/CFE agreement 
into force, as evidenced by the Russian State Duma's approval in June 
of a bill ratifying A/CFE--which was signed into law by President Putin 
on July 19th. We anticipate that Russia will formally deposit its 
instrument of ratification of A/CFE in the near future, and then 
reinvigorate efforts to persuade other CFE states parties to do 
likewise. Our position is clear, however: there is no shortcut to entry 
into force of the A/CFE agreement that does not involve full 
implementation by Russia of the Istanbul commitments. We will continue 
to urge NATO states to remain firm in pressing for Russian fulfillment 
of its obligations and to withdraw its forces from both Georgia and 
Moldova, and we will continue working with the OSCE and other partners 
to facilitate such withdrawal.
    In addition to reviewing implementation of the Vienna Document 1999 
and relevant security agreements, the FSC has played a role in 
developing norms and standards with respect to the political-military 
dimension. The most significant of these is the Code of Conduct on 
Politico-Military Aspects of Security adopted by the 1994 Budapest 
Summit. The Code describes the proper role of the armed forces in a 
democracy, including civilian control, the necessity for transparency 
and public access to information related to the armed forces, and the 
importance of adherence to international humanitarian law. Each year at 
the FSC, OSCE states provide information on their implementation of the 
Code of Conduct. This FSC work on the Code of Conduct is augmented by 
seminars and other events conducted by the OSCE Secretariat and 
individual states--typically in southeast Europe, Central Asia and the 
Caucasus--to promote adherence to the principles contained in the Code 
of Conduct.
    The FSC continues to execute effectively its tasks related to 
conventional armed forces. A significant level of transparency already 
has been achieved, but this does not mean we no longer need these 
tools. In fact, the continued successful implementation of these 
measures provides a fundamental support for the existing stability 
among OSCE states. The biggest challenge for the FSC in recent years 
has been to find a way to address new threats and issues while still 
addressing these ``traditional'' responsibilities. It was against this 
backdrop that the U.S. took its turn as Chairman of the FSC from 
September through December 2003.
    A major focus of work in the OSCE last fall was development of the 
OSCE's Strategy to Address Threats to Security and Stability in the 
Twenty-First Century, approved at the Maastricht Ministerial last 
December. In considering the political-military dimension for 
development of that Strategy, we emphasized the need to broaden the 
FSC's focus to incorporate new threats and challenges into its already 
established arms control and CSBM portfolio. The reasons why are 
simple. Traditional arms control and CSBM measures address inter-state 
relations and the lawfully constituted armed forces of those states. 
However, the new threats to security and stability we face in the OSCE 
region tend to be of an entirely different character: threats posed by 
non-state actors, threats emerging outside the OSCE region and exported 
into it, and threats which are generally not of a conventional military 
nature, but rather threats of terrorism, proliferation, or organized 
crime. One could say that we have entered a period in the OSCE when the 
threats on our borders have diminished, but increasingly we have no 
borders on our threats.
    Building on the work of the OSCE to frame its new Strategy 
document, the U.S. wanted to enhance the security dialog task of the 
FSC to broaden the Forum's focus during our chairmanship. The advantage 
of the security dialog function is that it allows the FSC to thoroughly 
explore and discuss a topic with no predetermined expectation of 
follow-up action, such as agreement on new measures. As a result, the 
FSC can frame the dialog, as appropriate, for any particular topic. The 
U.S. Mission, working closely with Washington agencies, used our 
Chairmanship to reinvigorate the security dialog and make it a more 
useful tool for the OSCE. We focused on three areas that would address 
U.S. security concerns and help OSCE participating states as well: non-
proliferation, the man-portable air defense systems--or MANPADS--
threat, and Civil-Military Emergency Preparedness.
    First, non-proliferation. During our Chairmanship, and working with 
subsequent FSC Chairman, the U.S. arranged for a number of sessions 
that allowed OSCE states to be made aware of the risks, challenges and 
on-going efforts to combat the proliferation of weapons of mass 
destruction. Representatives from the International Atomic Energy 
Agency, the International Institute for Strategic Studies, and the OSCE 
Actions against Terrorism Unit were among those providing insights into 
the non-proliferation activities of other international organizations. 
The FSC does not want to impede these ongoing efforts in any way, but 
remains seized of the issue in order to determine whether and how it 
can contribute to non-proliferation activities already undertaken by 
others.
    Second, MANPADS. The FSC has led OSCE efforts to address the threat 
from MANPADS. In 2003, the OSCE took action in response to the G-8 
decision at its meeting at Evian, France, regarding effective and 
comprehensive controls for MANPADS. The FSC called upon participating 
states to use existing mechanisms under the OSCE Document on Small Arms 
and Light Weapons--or SALW--to destroy excess MANPADS and to ensure 
their security and avoid illicit transfers. In 2004, the FSC continued 
its search for a meaningful contribution to address the MANPADS threat. 
The result of these efforts was adoption by the OSCE of the Wassenaar 
Arrangement's Elements for Export Controls of MANPADS. This action by 
the OSCE almost doubled the number of countries that had agreed to 
apply these stringent controls on MANPADS. The membership of the OSCE 
permits it to make a unique contribution to global security 
initiatives. Sometimes, as was the case with export controls for 
MANPADS, the OSCE can build on work done by smaller or specialized 
organizations, resulting in a wider application of valuable agreements. 
At other times, the OSCE can build on global initiatives, adding 
European/Eurasian specificity and setting an example for other regions. 
As with non-proliferation, the FSC will keep MANPADS on its agenda and 
continue to search for further contributions.
    Third is the issue of Civil-Military Emergency Preparedness. Under 
U.S. Chairmanship, the FSC hosted a day-long discussion on this topic 
which is increasingly important in today's world. Under Secretary Brown 
of the U.S. Department of Homeland Security provided the keynote 
presentation. A rich array of speakers from the UN, NATO, the EU and a 
number of countries elaborated on their programs and suggested ways in 
which the OSCE might play a non-duplicative role. The goal of this 
particular dialog session was to share information and expose OSCE 
delegations to the range of issues associated with emergency 
preparedness--in other words, to provide transparency. Delegations 
welcomed the straightforward approach of the participants and did not 
worry about trying to devise new OSCE standards. It is possible that 
related discussions may occur at a later time in the FSC, but nothing 
is currently on the agenda. Bringing this topic to the security dialog 
demonstrated a key aspect of the FSC's security dialog: knowledgeable 
experts may engage in substantive discussion in a setting that may or 
may not lead to follow-on activity.
    Before concluding, let me turn to yet another aspect of the work of 
the FSC with the potential for tangible results.
    You may recall that in November 2000, the FSC adopted the OSCE 
Document on Small Arms and Light Weapons. As with several other FSC 
documents, this one establishes norms and standards for the OSCE 
states, as well as transparency measures related to exchanges of 
information. In 2003, the FSC endorsed voluntary contributions by a 
number of participating States to produce eight ``best practice 
guides'' to elaborate on specific aspects of the Small Arms Document. 
For ease of use, these guides were published as a single reference 
document, the OSCE Handbook of Best Practices on Small Arms and Light 
Weapons, which is available in all six OSCE languages.
    At present, the FSC continues work to enhance the standards set by 
the Small Arms Document, with the immediate focus on establishing 
common standards for end-user certificates when exporting small arms 
and light weapons. This will greatly improve the ability of OSCE states 
to verify the end-use and end-user of any exported small arms. 
Initiated by the U.S., the actual proposal before the FSC was co-
sponsored by Russia, Turkey, Hungary and Finland (representing the 
European Union), demonstrating the widespread interest among OSCE 
states in building on the standards set by the Small Arms Document. A 
related task on the FSC agenda is to establish principles to govern the 
brokering of small arms and light weapons. Illicit brokering is 
recognised as among the main factors facilitating the illegal trade in 
small arms and light weapons around the world. Only some 20 countries 
worldwide have national legislation in place in this field. Development 
of this set of principles by the FSC will enhance existing initiatives 
and efforts at the national, regional and global levels and allow for 
increased international cooperation in preventing, combating and 
eradicating illicit brokering in small arms and light weapons.
    Another key element of the OSCE Small Arms Document is that it 
provides a basis for the OSCE, through the Permanent Council and the 
FSC, to respond to requests for assistance on a range of small arms 
issues, such as security and management of stockpiles, disposal of 
small arms, and border controls to reduce illicit trafficking in small 
arms. The FSC developed a plan of action for responding to such 
requests that was subsequently endorsed by the Permanent Council. With 
this procedure in place, OSCE states have begun to request OSCE 
assistance in destroying and controlling excess small arms. A request 
from Belarus in 2003 resulted in the visit of an OSCE assessment team 
to Minsk to determine the viability of an OSCE small arms project 
there. Despite Belarus' lamentable human rights record, the U.S. 
decided to participate in this assessment visit and use it as an 
opportunity to advance efforts to control (and destroy excess) MANPADS. 
A project team is being organized to begin work on a specific project 
plan for Belarus, and we are making every effort to ensure that its 
mandate includes destruction of MANPADS. In the meantime, the OSCE will 
begin to examine the latest request for small arms assistance--received 
from Tajikistan in July of this year.
    A major accomplishment of the U.S. Chairmanship of the FSC in 2003 
was completion of its work on the OSCE Document on Stockpiles of 
Conventional Ammunition. As you know, there are huge quantities of 
excess munitions remaining from the end of the Cold War, mainly in the 
countries of the former Soviet Union. Following on its work with small 
arms, the FSC was the obvious body to address the security risk arising 
from stockpiles of conventional ammunition, explosive material and 
detonating devices in surplus and/or awaiting destruction in the OSCE 
area. The OSCE Stockpiles Document, as it is more commonly known, 
establishes a mechanism that allows participating States to request 
international assistance to either destroy or better manage and secure 
these stockpiles. The Stockpiles Document is the newest tool in our box 
and emphasizes the FSC's interest in finding concrete and practical 
solutions to ongoing security issues in the OSCE region. The OSCE has 
already received requests for assistance under the Stockpiles Document 
from four states: Ukraine, Russia, Belarus and Tajikistan. A special 
experts meeting will be held in Vienna later this month to gain more 
insights into the precise assistance being requested and to examine 
options of coordinating with other international organizations to 
provide assistance.
    I'd like to come back once again to the CSBMs contained in the 
Vienna Document 1999. Time and time again we hear from other parts of 
the global community about the importance of establishing and 
maintaining a secure environment based on trust, especially with regard 
to military forces and activities. Often, the Vienna Document 1999 is 
specifically cited for its comprehensive system of transparency 
measures. Two of the OSCE's Partners for Cooperation, Korea and Japan, 
have demonstrated their belief that Asia has something to learn from 
the OSCE. They have both held seminars on security issues that provided 
a focused review of Vienna Document 1999 CSBMs and their possible 
applicability to Asia, the most recent of which took place last March 
in Tokyo.
    We in the State Department recognize the value our OSCE experience 
brings to questions related to regional security. Until earlier this 
year, the Political-Military Affairs Bureau was charged with promoting 
CSBMs and regional security issues for other parts of the world. We 
have now brought that function to the Arms Control Bureau. Close 
coordination within the Bureau allows us to capitalize on the 
experience of our OSCE experts as we pursue CSBMs elsewhere in the 
world.
    Mister Chairman, the Forum for Security Cooperation, like all other 
bodies in the OSCE, is a consensus body. This naturally limits what any 
one country can accomplish, especially when we consider the range of 
views held in an organization of 55 members. The OSCE--and, by 
extension, the FSC--is fundamentally about politically binding norms 
and standards. It has no enforcement capability.
    But, the FSC remains a useful forum for the United States. In 
addition to the norms, standards and measures the FSC has established, 
it offers a venue for its 55 members to discuss--in open forum or in 
smaller groups--issues of national interest. That, in and of itself, is 
a valuable confidence- and security-building measure. I hope I have 
been able to show you that as a result of the U.S. Chairmanship in the 
autumn of 2003, the work of the FSC has been broadened to encompass 
some key U.S. security interests. I have every expectation that we can 
continue to address U.S. security interests in the FSC, as it is clear 
that these topics are also vitally important to the other members of 
the OSCE.

            Prepared Statement of Secretary Michael G. Kozak

    Chairman Smith and Members of the Commission, thank you for holding 
this timely hearing --- in the period before the Warsaw Human Dimension 
Implementation Meeting and the Sofia Ministerial --- to focus on the 
important work of the OSCE. The Congressional calendar is extremely 
full this late in the session, so your time and focus is very much 
appreciated. I commend Commission Members for your long-standing 
commitment to human rights and democracy work. I am also pleased to be 
joining Assistant Secretaries Jones and Rademacher at this important 
hearing.
    This is my first appearance before the Helsinki Commission, but I 
have had the pleasure of working with you and your excellent staff over 
the years. Before coming to the Bureau of Democracy, Human Rights and 
Labor (DRL), I spent three years as Ambassador to Belarus where I saw 
the impact that the OSCE had on promoting human rights and democratic 
change. The OSCE Mission put a spotlight on the abuses of the 
Lukashenko regime, and was a beacon of hope for courageous human rights 
activists.
    Next year will mark the 30th Anniversary of the Helsinki Final Act. 
Many challenges remain, but the fact that the Government of Bulgaria is 
now serving as the OSCE Chair-in-Office--something unimaginable in 
1975--demonstrates how far we have come. OSCE has been a vital partner 
in the pursuit of democracy and human rights in Europe and Eurasia, a 
goal that is more important than ever given the ongoing fight against 
terrorism. As Secretary Powell has stated, ``A world in which human 
rights and fundamental freedoms are respected and defended is a world 
of peace in which tyrants and terrorists cannot thrive.''
    In my testimony, I will discuss the democracy deficit that 
continues to plague some parts of the region. Next I will cover the 
continuing need to establish and improve key democratic institutions 
such as elections, media freedom, the rule of law, and tolerance. 
Finally, I will address some of the recent challenges facing the OSCE, 
and conclude by proposing strategies for refining and strengthening the 
Organization and promoting enhanced respect for OSCE commitments.
    Elections that meet international standards remain a hallmark of 
democratic society. Yet for elections to be truly democratic, citizens 
need to enjoy all of their human rights and fundamental freedoms. 
Unfortunately, a democracy deficit continues to plague many countries 
of the OSCE, as is evident in the flawed elections some countries 
continue to hold. We therefore support the crucial work of ODIHR, not 
only in monitoring and reporting on elections, but also in assisting 
participating States in developing and implementing laws and 
legislation that ensures the rule of law and essential rights such as 
freedom of speech and assembly.
    Collectively these efforts have helped foster important reforms. 
Recent OSCE involvement in the Balkans and Georgia has resulted in 
marked improvement, with progress made towards elections that meet OSCE 
standards. With U.S. and OSCE assistance, Albania in 2003 held what was 
deemed to be the fairest and most transparent elections in the 
country's history despite some administrative issues and isolated 
incidents of violence.
    In other cases, we have seen less success. Examples of flawed 
elections since the Commission's last hearing on the OSCE include 
Azerbaijan's October 2003 presidential election, Russia's December 2003 
parliamentary elections and March presidential election, and the August 
presidential election in Chechnya. There has been little or no 
accountability for the poor conduct of these elections, and in the case 
of Azerbaijan, there also has not been an investigation into or 
accountability for reports of torture by security forces following 
post-election violence. Georgia's parliamentary elections involved 
serious irregularities which led to peaceful protests and the 
resignation of President Shevardnadze--showing that governments that 
engage in efforts to manipulate the electoral process do so at their 
own peril.
    ODIHR involvement in assisting Kazakhstan, Kyrgyzstan, and 
Tajikistan to revise their electoral laws this past year has been 
remarkably successful. While none of their respective laws are fully 
compliant with OSCE commitments, they have all been brought closer to 
international standards. We urge these governments to continue their 
close work with ODIHR to bring their laws into full compliance with 
OSCE commitments and we remain hopeful that on the basis of this 
improved electoral legislation, the conduct of upcoming elections in 
their countries will be a step forward. All depends on the political 
will and good faith efforts of these governments to impartially 
implement their legislation.
    Domestic and international observers can enhance the electoral 
process and public confidence. We welcomed provisions in the recently 
revised electoral codes in Kazakhstan and Kyrgyzstan that provide 
explicit guarantees for domestic election monitoring. Unfortunately, 
Tajikistan's and Azerbaijan's legislation falls short in that important 
area. We encourage them to work with ODIHR to revise their laws to 
fully guarantee that right.
    We regret that Uzbekistan, despite assurances to ODIHR, did not 
enact any changes to its election legislation, as recommended by an 
ODIHR assessment. Due to that refusal, and the denial of registration 
to four independent opposition parties, we regretfully note that the 
electoral process for the December parliamentary elections is already 
flawed and will likely not be democratic unless serious steps are taken 
to reverse course. We are urging the government to allow citizen 
initiative groups to field independent candidates--something permitted 
under current law.
    Rule of law based on democratic principles and commitments is a 
lynchpin of democratic society, and an independent judiciary is 
integral to the rule of law. Without rule of law, no fundamental 
freedoms and rights guaranteed to citizens of the OSCE region are safe. 
Instituting the rule of law requires two basic steps: that countries 
enact laws that meet international standards, and then enforce them 
impartially and consistently. The OSCE can and has played an invaluable 
role with both these steps.
    Regarding the first step, the OSCE can analyze participating 
States' legislation and recommend amendments to meet OSCE standards. In 
Kyrgyzstan, ODIHR advisers provided a praiseworthy service when they 
analyzed the 2003 constitutional amendments and proposed changes to 
bring them into compliance with international standards. We urge 
Kyrgyzstan to enact those recommendations.
    Concerning the second step, the OSCE can bolster participating 
States' capacity to enforce the law consistently and impartially. ODIHR 
has several notable success stories in Central Asia, especially 
Kazakhstan and Kyrgyzstan, where the governments have transferred 
authority for prison administration to the Ministries of Justice. 
Comprehensive penal reform programs are bringing prison administration 
close to international standards.
    These commendable efforts need to be reinforced in all 
participating States where corruption and abuse of authority continues 
to weaken the rule of law, and thus democracy. We see that in the case 
of Albania. As I noted earlier, last year Albania had the fairest 
election in its history. However, organized crime and corruption 
continues to threaten the stability of Albania. Corruption remains one 
of the greatest obstacles to improving human rights in many countries 
in the region. Continued efforts to promote good governance are 
essential to help countries fulfill their OSCE commitments.
    There can be no democracy without media freedom. Free press ensures 
that people have information needed to make informed choices. 
Unfortunately, the situation for journalists in some OSCE participating 
States has worsened since the last OSCE hearing.
    Actions in Russia over the past few years raise serious questions 
about its commitment to media freedom, which had been a hallmark of 
post-Soviet Russia. NTV's recent cancellation of two programs 
effectively has left Russian national television without independent 
political programming. Ukraine and Belarus intensified their assault on 
independent media in the run-up to October elections by harassing, 
intimidating, fining, and at times imprisoning independent journalists, 
and by closing down independent media outlets. Moldova is still 
grappling with transforming TeleRadio Moldova into a truly independent 
broadcaster, while Turkmenistan recently took steps to clamp down 
further, creating a National Press Service to supervise print media.
    We are pleased with the selection of Miklos Haraszti, the new 
Representative for Freedom of Media. We wish him success and are 
pleased that one of his first major initiatives is to urge governments 
to decriminalize libel laws. The U.S. made an extra budgetary 
contribution to the project to develop a database matrix on libel 
legislation in the OSCE region. Only when libel is decriminalized, can 
there be a vibrant market place of ideas.
    An active civil society is one of the most important components for 
a thriving democracy. Last year we reported a growing number of vibrant 
civil society groups advocating for peaceful change and greater 
accountability in a majority of OSCE states. This past year, NGOs 
continued their courageous work; however, we remain concerned by 
harassment and/or restrictions placed on NGOs in several countries.
    In FY04 the U.S. provided over $400 million to support democratic 
development in the OSCE region. My Bureau uses the Human Rights and 
Democracy Fund (HRDF) to support freedom of the press, political party 
development, and human rights advocacy, primarily in Central Asia. In 
FY04, DRL funded over $7 million in HRDF projects in Europe and 
Eurasia. These projects, as implemented by our partners in the NGO 
community, show U.S. commitment to developing civil society in the OSCE 
target region and are described in detail in the State Department 
publication, ``Supporting Human Rights and Democracy: the U.S. Record 
2003-2004.'' U.S. democracy funding also includes approximately $6.5 
million in voluntary contributions to the OSCE for human and economic 
dimension projects, including the participation of NGO representatives 
at the annual OSCE Human Dimension Implementation Meetings (HDIM) in 
Warsaw, giving human rights activists from Europe and Eurasia the 
invaluable opportunity to openly report on the human rights abuses in 
their countries.
    Unfortunately many countries have failed to understand the benefit 
of U.S. democracy assistance. Recent developments in Russia have called 
into question for the first time in their post-Soviet history whether 
the Government respects freedom of association. In his May State of the 
Union speech, President Putin questioned the loyalty of NGOs that 
receive foreign assistance. Recent pressure on NDI and its Russian 
partner The VOICE Association for Voters' Rights are troubling. In 
Belarus, over 20 human rights organizations have been closed along with 
several independent trade unions, and the Belarusian Party of Labor was 
shut down. Ukraine's vibrant civil society is at times weakened by 
governmental harassment that has intensified, and at times turned 
violent, with the upcoming elections. There has been violence against 
members of civil society NGOs or their relatives in several OSCE 
countries, including Ukraine, Uzbekistan, Armenia and Azerbaijan, with 
little or no accountability.
    In Central Asia, Uzbekistani legislation enacted over the past nine 
months has severely restricted the rights and ability of domestic and 
international NGOs to engage in democracy-building work. In both 
Uzbekistan and Kyrgyzstan, U.S. implementing partners have been 
publicly accused of engaging in illegal activities. Turkmenistan's 
civil society is seriously hindered by its November 2003 draconian law 
on public associations.
    Overcoming the persistent democratic deficit in the OSCE region 
will improve the lives of citizens by giving them a stake in the 
system, enabling them to enjoy fundamental freedoms and shape their own 
destiny. It will also help eliminate an overarching threat to democracy 
and human rights: extremism and terrorism. All OSCE States must 
continue to root out extremism and terrorism. We all have the 
responsibility to ensure that human rights are protected even as we 
combat terrorism. Sadly, no country is immune from such abuses, but in 
a democracy, those who abuse power are brought to justice.
    The deplorable treatment of some Iraqi detainees at the hands of 
some U.S. military personnel was a shock to our nation. When President 
Bush expressed his deep disgust and regret about events at Abu Ghraib, 
it wasn't just his personal reaction as a man of principle. It was also 
his reaction as the head of state of a country that holds itself to a 
higher standard, both at home and in our conduct in the world. As 
President Bush said, one of the key differences between democracies and 
dictatorships ``is that free countries confront such abuses openly and 
directly.'' We expose the truth, hold all who bear responsibility fully 
accountable and bring them to justice, and then take action to ensure 
that abuses do not reoccur.
    The U.S. is committed to promoting and protecting human rights 
within its territory and around the world. We take our OSCE commitments 
seriously and we will continue to keep the OSCE apprised as 
investigations proceed. We are also organizing a side event for the 
upcoming HDIM in Warsaw where we will proactively address the issue of 
prisoner abuse and U.S. efforts at accountability. We will continue to 
press other governments whose forces commit abuses to follow the same 
approach.
    The U.S. supports OSCE's effort to eliminate all forms of torture, 
and to press individual OSCE participating States to end torture and 
hold human rights abusers accountable. The U.S. continues to have 
serious concerns about torture in Uzbekistan. While the Government 
there took the highly commendable step to invite the U.N. Special 
Rapporteur on Torture in late 2002, Uzbek authorities remain slow in 
implementing the Rapporteur's recommendations. We remain very 
disappointed that, despite promises to do so during the Spring session 
of parliament this year, the Government has not introduced habeas 
corpus legislation into its criminal code. We are encouraged by recent 
efforts to work with domestic human rights NGOs on monitoring prison 
conditions and we urge swift implementation of the Rapporteur's 
recommendations.
    A crucial component in the fight against terrorism is the support 
and promotion of tolerance of all ethnic, racial and religious 
minorities. By protecting the rights of all minorities, we can work to 
ensure that that the roots of terrorism are not fertilized by feelings 
of societal marginalization and fear. We applaud the OSCE's commitments 
to fighting racism, anti-Semitism, religious intolerance and other 
forms of xenophobia or discrimination. The U.S. and the OSCE share a 
common goal of fostering racial, ethnic and religious tolerance.
    The Anti-Semitism Conference in Berlin in April resulted in a 
comprehensive OSCE plan to fight anti-Semitism, while the June Paris 
Meeting on the Relationship between Hate Speech on the Internet and 
Hate Crime addressed new forms of propagating hate speech and bigotry 
while still strongly supporting freedom of expression and ideas. At The 
Brussels Conference on Racism, Xenophobia and Discrimination, which 
just concluded, all 55 OSCE participating states joined together to 
reaffirm and strengthen the OSCE's commitment to combat intolerance in 
all forms.
    But despite these commitments, serious problems remain for racial, 
ethnic and religious minorities throughout the OSCE region, and much 
remains to be done by both OSCE institutions and participating States 
to combat intolerance. As Kosovo struggles to move from the devastation 
of war to becoming a more stable, democratic society, non-Albanian 
minorities, particularly Serbs, suffer from widespread social 
discrimination in employment, education and health services among 
others. The recent outbreak of inter-ethnic violence resulting in the 
destruction of homes and churches is a reminder of the crucial 
relationship between tolerance and the sustainability of democracy and 
the rule of law.
    A good way to address many of the issues is to strengthen the OSCE, 
but the OSCE can only be as strong as its participating States. This 
requires the leaders of each OSCE country to honor commitments in word 
and deed. We must expect more from each other. OSCE provides important 
tools for promoting democracy and human rights, but ultimately each 
participating State is responsible for using these mechanisms 
effectively to hold all OSCE countries to their commitments.
    This year, the ability of the OSCE to act as a unified and 
effective body has been challenged by several developments. The July 
Declaration signed by nine member States of the Commonwealth of 
Independent States is puzzling. The Declaration refers to ``such 
fundamental Helsinki principles as non-interference in internal affairs 
and respect for the sovereignty of States.'' Yet in 1991, OSCE 
participating states agreed in the Document of the Moscow Meeting of 
the Conference on the Human Dimension of the CSCE that:
    ``The participating States emphasize that issues relating to human 
rights, fundamental freedoms, democracy and the rule of law are of 
international concern, as respect for these rights and freedoms 
constitutes one of the foundations of the international order. They 
categorically and irrevocably declare that the commitments undertaken 
in the field of the human dimension of the CSCE are matters of direct 
and legitimate concern to all participating States and do not belong 
exclusively to the internal affairs of the State concerned.''
    In response to the charge of double standards by ODIHR, we 
underscore that there is only one standard for democratic elections. We 
see ODIHR's election monitoring efforts as objective and based upon 
standards set out in the OSCE commitments stipulated in the 1990 
Copenhagen Document and the 1991 Moscow Document and reaffirmed in the 
Charter for European Security adopted at the Istanbul Summit. That is 
why the U.S. has invited ODIHR to observe our own Presidential and 
Congressional elections in November as we have consistently since those 
commitments were undertaken.
    Moreover, in the case of those participating States that have not 
yet had democratic elections, we view ODIHR monitoring teams not as 
``interference'' but rather as an international resource that is 
available to those countries that seek to improve public confidence in 
elections and to uphold their OSCE commitments.
    We urge participating States to further refine and strengthen the 
organization by making key strategic decisions and then backing them 
with political will. One important strategic decision is striking the 
appropriate balance among diverse OSCE activities. While each effort 
helps to further OSCE objectives, a finite budget demands that 
participating states regularly assess the value added of each 
component. Administrative expenses are obviously essential. Support for 
ODHIR is crucial. Visits by high-level OSCE officials and special 
representatives and international conferences are important to focus 
attention on problem areas and promote reform. However, sufficient 
resources should be allocated so that those on the ground who are 
rolling up their sleeves to effect change--whether in field missions or 
ODHIR teams--have adequate means to do so.
    Another key strategic decision involves the development and use of 
a series of positive and negative incentives that will entice 
participating States to uphold their OSCE commitments. Public 
statements and private meetings draw important attention to states that 
fail to meet their OSCE commitments. However, it is clear that some 
participating States need more encouragement and support. When the 
Government of Belarus closed down the OSCE mission in 2002, a joint 
U.S.-EU visa ban on high-level Belarusian authorities prompted the 
Government of Belarus to allow the OSCE Mission to be re-established. 
The Mission in Minsk is still there today. This example demonstrates 
that unified political will coupled with the right incentives is 
effective.
    The upcoming elections in Belarus and Ukraine are cogent examples 
of times when targeted incentives backed by unified political will 
could make a difference. Despite varying degrees of repression, 
democratic candidates are gaining popular support in both countries. A 
voting process that meets OSCE standards could significantly advance 
democracy in these two nations. We commend the OSCE's efforts to date 
to mount effective observer missions in Belarus and Ukraine and we will 
continue to urge participating States to contribute as much as they can 
to these efforts. Yet these two participating States clearly need extra 
incentives to do the right thing.
    Strong, effective leadership strengthens the OSCE. Participating 
States must select Chairs in Office and Heads of Missions who are 
willing to put OSCE concerns first and foremost. These leaders must 
actively promote a unified strategy among participating States who care 
about democracy and human rights, using revamped incentives as well 
supporting field missions.
    We attach great importance to the chairmanship and consider very 
carefully the readiness of any state wishing to assume that heavy 
responsibility. Chairmanship must be held by a nation that has 
demonstrated leadership in implementing all the commitments undertaken 
by participating States. The U.S. welcomes Kazakhstan's bid to become 
Chairman-in-Office in 2009 and we would be pleased to see them become a 
viable candidate. We very much hope that they will be able to 
demonstrate the leadership required of a chair well before December 
2006, when the chairmanship will be approved.
    Field missions need adequate resources and staunch political 
backing from OSCE leaders and participating States. When participating 
States fail to fully back field missions, the organization and the host 
country's citizens suffer. Field missions provide vital support to 
civil societies and governments alike in the promotion of democracy and 
human rights. They are there to help countries meet their commitments. 
For this reason, we hope that the OSCE can move quickly to fill 
vacancies for Heads of Mission in Uzbekistan and Turkmenistan.
    When field missions receive strong support from the Chairman in 
Office host government, and each member of the Permanent Council, the 
missions can achieve significant changes even in the most troubled 
environments. However, when the OSCE allows host governments to 
obstruct the work of field missions, it is embarking on a slippery 
slope of dangerous precedent that will undermine the organization. 
Decisions affecting the operations of field presences should not be 
taken without full consultations and serious consideration of the 
implications for the OSCE.
    This past July, Turkmenistan refused to renew the contract of the 
OSCE Head of Mission in Ashgabat, Ambassador Badescu, for activities 
that fell well within her mandate. The U.S. adamantly opposed this 
action and we will work with our OSCE colleagues to find another 
excellent head of mission. A unified OSCE voice from leaders and 
participating states against such action coupled with calibrated 
incentives, as were eventually used when Belarus closed down its OSCE 
Mission, could have kept Ambassador Badescu in Ashgabat, helped promote 
reform in Turkmenistan, and strengthened the OSCE.
    In his memoirs, former Secretary of State George Schultz recalls 
traveling to Vienna in 1989 to sign the CSCE Treaty that resulted in a 
Human Rights Conference in Moscow. Recounting the strong efforts of the 
U.S. that resulted in expanding room for independent media in Russia 
and the release of political prisoners, he said, ``We had insisted.that 
we would not settle simply for words on human rights. We insisted on 
deeds by the Soviets and their Satellite states.'' Today, we can only 
echo Secretary Schultz' sentiment that we must insist that promises of 
human rights for citizens are fulfilled in deed throughout the OSCE 
region.

                                 [all]
  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
